<html>
<title> - FEDERAL RECOGNITION</title>
<body><pre>[Senate Hearing 109-91]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-91

                          FEDERAL RECOGNITION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

       OVERSIGHT HEARING ON FEDERAL RECOGNITION OF INDIAN TRIBES

                               __________

                              MAY 11, 2005
                             WASHINGTON, DC

                    U.S. GOVERNMENT PRINTING OFFICE
21-352                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Adkins, Stephen R., chief, Chickahominy Indian Tribe.........    26
    Barnett, John, chairman, Cowlitz Indian Tribe................    28
    Bragdon, Kathleen J., professor, Department of Anthropology, 
      College of William and Mary................................    30
    Cooper, Kenneth F., president, Town Action to Save Kent......    32
    Crapo, Michael D., U.S. Senator from Idaho...................     2
    Dodd, Christopher, U.S. Senator from Connecticut.............     3
    Dorgan, Hon Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     2
    Fleming, Lee, director, Federal acknowledgment, Office of 
      Indian Affairs, Department of the Interior.................    18
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............     2
    Johnson, Hon. Nancy, U.S. Representative from Connecticut....     8
    Kendall, Mary L., deputy inspector general, Department of the 
      Interior...................................................    15
    Lieberman, Joseph, U.S. Senator from Connecticut.............     7
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Rell, M. Jodi, Governor, Connecticut.........................    13
    Shays, Hon. Christopher, U.S. Representative from Connecticut    10
    Velky, Richard L., chief, Schaghticoke Tribal Nation.........    24

                                Appendix

Prepared statements:
    Adkins, Stephen R. (with attachment).........................    41
    Allen, Hon. George, U.S. Senator from Virginia...............    37
    Barnett, John (with attachment)..............................    73
    Blumenthal, Richard, attorney general, Connecticut...........    89
    Boughton, Mark D., mayor, Danbury, CT........................    38
    Bragdon, Kathleen J. (with attachment).......................    97
    Coburn, M.D., Hon. Tom A., U.S. Senator from Oklahoma........    40
    Congdon, Robert, Towns of Ledyard, North Stonington, and 
      Preston, Connecticut.......................................   102
    Cooper, Kenneth F. (with attachment).........................   111
    Gumbs, Lance, former chairman, Shinnecock Indian Nation......   121
    Johnson, Hon. Nancy, U.S. Representative from Connecticut....   133
    Kendall, Mary L..............................................   127
    Lieberman, Joseph, U.S. Senator from Connecticut.............   138
    Mendenhall, Susan, Towns of Ledyard, North Stonington, and 
      Preston, Connecticut.......................................   102
    Mullane, II, Nicholas H., Towns of Ledyard, North Stonington, 
      and Preston, Connecticut...................................   102
    Rell, M. Jodi (with attachment)..............................   143
    Rose, Calvin R., Strawberry Valley Rancheria, California.....   176
    Simmons, Hon. Robert, U.S. Representative from Connecticut...   180
    Sinclair, John, president, Little Shell Tribe of Chippewa 
      Indians, Montana...........................................   184
    Smith, Chad, principal chief, Cherokee Nation................   188
    Velky, Richard L. (with attachment)..........................   193
Additional material submitted for the record:
    Anderson, Michael, Monteau and Peebles (letter)..............   283
    Malick, Elida, director, No Casino In Plymouth (letter)......   286
    Peters, Paula, Mashpee Wampanoag (letter)....................   289

 
                          FEDERAL RECOGNITION

                              ----------                              


                        WEDNESDAY, MAY 11, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
485, Senate Russell Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain, Burr, Crapo, Dorgan, and Inouye.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    In 1978, after years of ad-hoc decisions, the Department of 
the Interior promulgated regulations intended to ensure a fair, 
timely and rigorous process for the administrative recognition 
of Indian tribes.
    Since that time, this committee has held numerous oversight 
hearings on that process. What those hearings have shown us is 
that from the beginning this process, though well intentioned, 
has been criticized as too slow, too costly and too opaque. 
Congressional recognition, on the other hand, has been 
criticized for being too summary and too unfair.
    Events in recent years have raised the specter of improper 
conduct by Federal officials, including well-reported accounts 
of paperwork being signed through car windows by departing 
officials, and officials resigning Federal employ to 
immediately work with tribes they recently recognized.
    The role that gaming and its non-tribal backers have played 
in the recognition process has increased perceptions that it is 
unfair, if not corrupt. The solemnity of Federal recognition, 
which establishes a government-to-government relationship 
between the United States and an Indian tribe, demands not only 
a fair and transparent process, but a process that is above 
reproach.
    While the relationship established is Federal, the impacts 
are felt locally as well, as has been reported to this 
committee by states attorneys general and local communities. 
Congress retains the ultimate authority and responsibility to 
recognize and deal with Indian tribes, including oversight of 
the Federal agencies also charged with those responsibilities.
    Therefore, it is Congress' responsibility to ensure that 
administrative agency action is conducted in a transparent 
fashion, in keeping with good governance. The committee will 
hear from a variety of witnesses today, including colleagues 
from the Senate and House. I anticipate that informed by this 
and past hearings, this committee will begin looking at ways to 
fix the process.
    Vice Chairman Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Senator McCain, thank you very much, and 
thanks to those of you have who come to present testimony at 
this hearing.
    As Senator McCain indicated, this is a complicated issue. 
The recognition process is most often lengthy and costly. It 
requires a huge amount of research and documentation. We have 
many witnesses today. Let me just say that I share your 
interest in this issue.
    Number one, the recognition process is very important. We 
have a process at this point that was begun in 1978 through 
regulation in the Department of the Interior. There are critics 
of that process from virtually every direction. The stakes are 
fairly large in many areas of the country with respect to 
tribal recognition. I think that this hearing is a very 
important discussion on a timely basis of something that needs 
to be considered by this committee.
    So thank you for the leadership on this hearing, Mr. 
Chairman.
    The Chairman. Senator Crapo.

  STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman.
    I, too, appreciate your attention to this issue. As has 
already been indicated, the stakes are very high as we evaluate 
the Federal recognition process. I look forward to the 
testimony of the witnesses today.
    Thank you very much.
    The Chairman. Senator Inouye.

  STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you, Mr. Chairman.
    Clearly, we have before us today a very distinguished panel 
of our colleagues and others who are interested in the subject 
of this hearing. I will make my remarks brief because there 
will be sufficient time for all the witnesses.
    Mr. Chairman, I have reviewed the statements that have been 
submitted to the committee before we closed up business last 
evening. It is clear that while this hearing is on the Federal 
recognition process, a number of witnesses are actually more 
concerned about tribal gaming. Accordingly, I think it is 
important that we note in the record a few facts.
    The Director of the Office of Acknowledgment will present 
testimony this morning and I would guess that he can more 
thoroughly document the facts that we discussed at our last 
hearing on this matter. One of those facts that I recall is 
that the larger number of petitions for acknowledgment that are 
now pending in that office were filed long before the advent of 
the Indian Gaming Regulatory Act or the Supreme Court's 
decision on Cabazon.
    I think it is important because there are some who have 
suggested that tribal groups have petitioned for Federal 
recognition for the sole purpose of conducting gaming. However, 
if this were so, we would have to attribute to many of the 
petitioning tribal groups a clairvoyance that they knew that 
one day in the distant future there was going to be a Supreme 
Court decision and thereafter the Congress was going to enact a 
law authorizing and regulating the conduct of gaming, so they 
decided that they would file a letter of intent to begin the 
process of seeking Federal recognition.
    Those that believe that the process is too slow, too 
expensive and too cumbersome, in that latter group I would 
suggest are many if not most of the tribal petitioning groups. 
Should the fact that a State has recognized a tribe for over 
200 years be a factor for consideration in the acknowledgment 
process? I would say definitely yes. How could it be otherwise? 
Don't most, if not all, of our States want the Federal 
Government to recognize the official actions of a State 
Government, when most of our States want the Federal Government 
to defer to the sovereign decisions and actions of those States 
over the course of their history? I think the answer to that 
question would be decidedly in the affirmative.
    So let's be clear about one thing. The Federal 
acknowledgment process is all about the recognition of the 
sovereignty of native nations that were here long before 
immigrants came to America's shores. It is not about gaming. 
The fact that pursuant to a law enacted hundreds of years 
later, in 1988 to be precise, affords the tribal governments 
the option of conducting gaming as one tool in developing their 
economies, and does not mean that every native government will 
in fact exercise that option.
    In fact, most native governments have elected not to pursue 
gaming. Let us not lose sight of the realities in a rush to 
judgment on the viability of a process that is clearly distinct 
from the issues of gaming.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Inouye.
    The State of Connecticut is well represented here this 
morning. I would like to thank all of my friends from the 
House, as well as my colleagues from the Senate, for being 
here. I would like to mention that the attorney general of the 
State of Connecticut had requested to appear here today as 
well. We did not receive his request until late. We received 
written testimony from him. We will have a series of hearings 
on this issue, and we will invite him in the future.
    We usually begin not only by seniority, but by age. And so 
Senator Dodd, I think you qualify in both categories. We 
welcome you to the committee.
    Senator Lieberman. Thank you, Mr. Chairman, a very astute 
observation. [Laughter.]

     STATEMENT OF HON. CHRISTOPHER DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. You know, they say there are lies, then there 
are statistics. [Laughter.]
    Anyway, thank you, Mr. Chairman, and let me express my 
gratitude to you and to the members of the committee for giving 
us an opportunity this morning to testify before you. 
Obviously, the work that you and Senator Dorgan are doing in 
holding this hearing is extremely important. No committee in my 
view has done more than in the Senate, in fact the whole 
Congress, to advance the cause of improving America's 
understanding of native peoples and native cultures than 
Chairman McCain and Vice Chairman Dorgan, along with their 
predecessors Senator Ben Nighthorse Campbell, who is retired 
from the Senate, and of course the distinguished Senator from 
Hawaii, Senator Inouye, have worked tirelessly to enable 
America to better understand her native peoples and to protect 
their sovereign States.
    I would like to acknowledge, Mr. Chairman, if I could, the 
presence of our Governor from Connecticut, Governor Rell; my 
colleagues from Connecticut, Senator Lieberman you have 
mentioned already, and Congresswoman Johnson, Congressman Shays 
and Congressman Simmons all are here to be heard this morning.
    We would also like to acknowledge the presence of two other 
witnesses, Chief Richard Velky of the Schaghticoke Tribe and 
Ken Cooper of the town of Kent Connecticut.
    At this time, I would also ask unanimous consent if I 
could, Mr. Chairman, that the testimony of the attorney general 
that you mentioned has been submitted to the committee would be 
included in the record, if we could here, as well as the 
testimony of the First Selectman of Kent, Connecticut, which is 
one of the Connecticut communities most directly affected by 
one of the decisions; and also the statement of Dolores 
Schiesel be inserted in the record as well, if we could.
    The Chairman. Without objection.
    Senator Dodd. Thank you, Mr. Chairman.
    Mr. Chairman, as all of my colleagues know, Congress has 
the authority and the duty to respect, honor and to protect the 
rights of the sovereign Indian nations that reside within the 
borders of the United States. The Federal Government has a 
unique legal relationship with each tribal government that 
represents peoples whose ancestors were here even before people 
from the rest of the world joined them in calling America their 
home.
    For several years now, the recognition process administered 
by the BIA has come under scrutiny. The General Accounting 
Office in its study released in November 2001 concluded, and I 
quote, ``because of weaknesses in the recognition process, the 
basis for BIA's tribal recognition decisions is not always 
clear and the length and time involved can be substantial,'' 
end of quote.
    These findings are reminiscent of the testimony offered by 
Kevin Gover who until January 2000 was the assistant secretary 
for Indian Affairs. In May 2000, Assistant Secretary Gover told 
this committee in fact, and I quote him here, ``I am troubled'' 
he said, ``by the money backing certain petitions and I do 
think it is time that Congress should consider an alternative 
to the existing process. Otherwise, we are more likely to 
recognize someone that might not deserve it'' end of quote.
    Mr. Gover went on, Mr. Chairman, to say that ``the more 
contentious and nasty things become, the less we feel we are 
able to do it. I know it is unusual for an agency to give up 
responsibility like this, but this one has outgrown us'' he 
went on to say. ``It needs more expertise and resources than we 
have available.''
    Furthermore, Mr. Chairman, the chairwoman of the Duwamish 
Tribe of Washington State testified that she and her people, 
and I quote, ``have known and felt the effects of 20 years of 
administrative inaccuracies, delays and a blase approach'' I am 
quoting her now, ``in handling and processing the Duwamish 
petitions'' end of quote.
    Taken together, Mr. Chairman, these statements speak to a 
startling admission. I would suggest that anytime an assistant 
secretary says in effect that his or her agency is incapable of 
grappling with one of its fundamental responsibilities, that 
person is issuing a cry for help and we should not ignore it.
    I am not here to criticize the civil servants at the BIA. 
They are doing their very best under extremely difficult 
circumstances and with very little financial assistance. In 
fact, I recognize that the BIA has begun to address some of the 
concerns outlined by the GAO report. Most notably, Mr. 
Chairman, the Bureau has taken steps to improve its records 
management, a system on recognition, a decisions technical 
assistance materials, and the Interior Board of Indian Appeals 
decisions.
    These steps will hopefully bring greater accountability and 
transparency to the work undertaken by the BIA.
    Nevertheless, Mr. Chairman, much more work needs, in my 
view, to be done if we are going to achieve our goal of making 
the tribal recognition process as open, fair and transparent as 
possible. Administrative irregularities, accusations of 
influence-peddling, and a process that is generally perceived 
as exceedingly arcane and opaque have given rise to profound 
doubts about the viability of the decisions being rendered by 
the Bureau. This is no way for a Federal Government to 
determine the legal status of tribal groups and to set the 
conditions for how those groups will interact with State 
Governments, municipalities and other Federal agencies.
    As Senator Inouye said 2\1/2\ years ago on the floor of the 
U.S. Senate during an amendment that Senator Lieberman and I 
offered at that time dealing with the recognition process, the 
process for conferring Federal recognition on our Indian 
tribes, and I quote our friend from Hawaii, ``is a scandal that 
should be changed,'' end of quote.
    Those tribes deserve better, and so do others who look to 
their Government to act fairly and expeditiously. I believe we 
have an obligation to restore public confidence in the 
recognition process.
    Toward this end, Senator Lieberman and I have reintroduced 
two bills designed to ensure that the recognition process will 
yield decisions that are beyond reproach. The Tribal 
Recognition Indian Bureau Enforcement, or TRIBE Act, would 
improve the recognition process in several ways. First, it 
would require that a petitioner meets each of the seven 
mandatory criteria for Federal recognition spelled out in the 
current Code of Federal Regulations.
    It is by now well known that several decisions by the BIA 
apply all seven criteria to some tribes, but not to others. 
This is patently unfair to these tribes subjected to a higher 
level of scrutiny by the BIA than other tribes. It runs 
contrary to our Nation's sense of fair play, in my view.
    Second, the TRIBE Act would provide for improved notice of 
a petition to keep parties who may have an interest in a 
petition, including the Governor and the attorney general of 
the State where the tribe seeks recognition, other tribes and 
elected leaders of the municipalities that are adjacent to the 
land of a tribe seeking recognition.
    Third, it would require that a decision on a petition be 
published in the Federal Register, and include a detailed 
explanation of the findings of fact and of law with respect to 
each of the seven mandatory criteria for recognition.
    And last, the TRIBE Act would authorize an additional $10 
million per year to better enable the Bureau of Indian Affairs 
to consider petitions in a thorough, fair and timely manner.
    Mr. Chairman, I would suggest obviously these things could 
be modified, but they are ideas we would like to put in place 
to try and get some predictability, some consistency to the 
process. I want to emphasize, Mr. Chairman, what this 
legislation would not do. It would not in any way alter the 
sovereign status of tribes whose petitions for Federal 
recognition have already been granted. It also would not 
restrict in any way the existing prerogatives and privileges of 
such tribes. Tribes would retain the right of self-
determination, consistent with their sovereign status.
    Finally, and perhaps most importantly, the TRIBE Act would 
not dictate outcomes, nor would it tie the hands of the BIA. It 
would simply create a uniform recognition process that is equal 
and fair to all.
    The second bill, very briefly, Mr. Chairman, would provide 
grants to allow poorer tribes and municipalities an opportunity 
to participate fully in important decisionmaking processes 
pertaining to recognition. Consequently, these grants would 
enable these communities to provide the BIA more relevant 
information and the resources from which to make a fair, fully 
informed decision on tribal recognition. When the Federal 
Government through the BIA makes decisions that will have an 
enormous impact on a variety of communities, both tribal and 
non-tribal, it is only right that the Government should provide 
a meaningful opportunity to those communities to be heard.
    I believe, Mr. Chairman, very strongly that every tribe 
that is entitled to Federal recognition ought to be recognized 
and ought to be recognized in an appropriately speedy process. 
At the same time, Mr. Chairman, we must make sure that the 
BIA's decisions are accurate and fair.
    Every recognition decision carries with it legal 
significance that should endure forever. Each recognition 
decision made by the BIA is a foundation upon which the 
relationships between tribes and States, tribes and 
municipalities, Indians and non-Indians will be built for 
generations to come. We need to make sure that that foundation 
upon which these lasting decisions are built is sound and will 
withstand the test of time. We cannot afford to build 
relationships between sovereigns on the shifting sands of a 
broken bureaucratic procedure.
    I thank you for listening.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Lieberman.

     STATEMENT OF HON. JOSEPH LIEBERMAN, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman, thanks to you and 
Senator Dorgan and members of the committee for holding this 
hearing. I welcome our Governor, members of the congressional 
delegation, the Chief from the Schaghticoke Nation, and Mr. 
Cooper from Kent.
    Mr. Chairman, I believe this is the first time our Governor 
has testified for a congressional committee, and therefore I am 
encouraged that you will greet her with your normal charm and 
grace. She is ready.
    Mr. Chairman, I am going to put my statement in the record 
based on Senator Dodd's statement which is quite comprehensive 
and with which I totally agree, and what I know my colleagues 
will say following. I just want to say a few words.
    We are not here on an anti-Indian mission. The fact is, and 
I believe I speak for everybody, in saying that the tribal 
recognition process is the law's way of trying to in some small 
way create a path for justice and recognition for Native 
American tribes, and to acknowledge thereby the dark parts of 
our history in which the tribes were treated, Native Americans 
were treated so miserably.
    The tribal recognition process was obviously altered, as 
Senator Inouye has indicated, by the advent of Indian gaming 
and the stakes involved are clearly much higher and questions 
about propriety are thick in the air, particularly in regard to 
the revolving door behavior that you cited, Mr. Chairman, in 
your opening statement.
    So it becomes critically important to achieve the historic 
purpose for which the tribal recognition process was created, a 
purpose of justice, recognizing that now the more contemporary 
reason that tribal recognition often tends to become the way to 
gaming as well.
    In our State, we have two major gaming operations operated 
by the Mashantucket Pequots and the Mohegans. I would say that 
these tribes have contributed enormously to the State's 
economy. They employ thousands of our people. They contribute 
hundreds of millions of dollars to our State Government every 
year.
    They also bring with them the natural social dislocation of 
enormous enterprises, some things as basic as traffic 
congestion or suburban sprawl or a challenge to social values. 
It is that kind of effect of gaming that makes people in our 
State and in other States around the country worry about 
whether there are limits to the amount of gaming that can 
affect any one State.
    But that is secondary. The point here, just a way of saying 
what is on the line here, the main point here is that the 
process of tribal recognition in my opinion has become 
dysfunctional; that we are asking an existing agency office to 
do, with the demands on it, what it does not have the resources 
to do, based on the increased demands and the increased 
significance of every decision they make.
    This is a circumstance that cries out for the kind of 
leadership that this committee is uniquely capable under the 
leadership of the two of you to perform. What do I mean? Nobody 
would ever say that this is a committee that was anti-Native 
American. It is very important to proceed from that basis.
    But this is a situation that cries out for reform in 
everybody's interest, so decisions will be credible. They will 
be legitimate and they will be reached in a timely fashion.
    Senator Inouye said it. There are some applicants for 
tribal recognition who have been waiting an enormous number of 
years. That is another kind of injustice that the current 
process does.
    So Mr. Chairman, I thank you for holding the hearing, for 
being willing to give it the time that this large number of 
witnesses requires of yourself and Senator Dorgan and the 
committee, and for giving me, in this case, the opportunity to 
appeal to you to take the leadership in bringing about the 
reform that everybody desperately needs.
    Thank you very much.
    [Prepared statement of Senator Lieberman appears in 
appendix.]
    The Chairman. Thank you very much, Senator Lieberman.
    I am aware that you and Senator Dodd have other obligations 
this morning, and I thank you for coming this morning.
    Congresswoman Johnson, welcome. It is very nice to see you 
again.

   STATEMENT OF HON. NANCY JOHNSON, U.S. REPRESENTATIVE FROM 
                          CONNECTICUT

    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you to the committee members for inviting us to testify this 
morning, my colleagues and I, our Governor and others, on the 
need to reform the Bureau of Indian Affairs' Federal tribal 
recognition process, and the need to pass legislation reversing 
the recognition of the Schaghticoke Indians.
    I urge you not only to look at reforming the recognition 
process, but re-thinking how it works in the densely populated 
eastern seaboard where the history of citizen-tribal relations 
have been so extremely different, and where the western 
expansion history does not exist. So it really needs to be re-
thought in regard to the Northeast, as well as reformed.
    Mr. Chairman, the BIA's tribal recognition process has 
failed the people of Connecticut because it resulted in a 
decision that is simply unlawful, a decision to acknowledge the 
Schaghticoke Tribal Nation of Kent, unlawful because it ignored 
evidence and overturned longstanding precedent. My bill lines 
this out in detail using material from the Bureau itself.
    As the committee knows, the BIA is permitted to recognize a 
tribe only if it satisfies each of the seven mandatory criteria 
laid out in Federal regulations, including the key criteria 
that a tribe demonstrate it has exercised political authority 
over a community throughout its history.
    The reason for these strict mandatory criteria are clear. 
The establishment of a federally recognized tribe has 
significant and irreversible affects on States and communities 
in which they are located. Federally recognized tribes are 
exempt from local taxation, local zoning and other areas of 
local and State law. They furthermore are allowed to pursue 
land claims over very broad areas and these land claims 
paralyze communities because they prevent the transfer of 
property, undermine the value of local property, and in general 
provide leverage for a tribe to negotiate to get a plot of land 
appropriate for a casino and the right to establish a casino.
    Casinos, then, impose on small towns, and particularly the 
surrounding towns, extraordinary burdens. These are towns with 
volunteer fire departments. These are towns that depend for 
public safety on State troopers. These are towns run primarily 
by volunteers on small budgets. They simply cannot survive the 
impact on infrastructure, the impact on tax base, the impact on 
the local laws of casino operations on surrounding and nearby 
Indian territories.
    In densely populated New England, the impact of recognition 
falls heavily on all citizens and has a truly lasting and 
profound impact.
    Mr. Chairman, the evidence convincingly shows that the 
Schaghticoke petition did not satisfy each of the seven 
mandatory criteria, yet in January 2004, the BIA reversed its 
own preliminary findings, ignored evidence, manipulated Federal 
regulations, and overturned existing agency precedent in order 
to grant Federal status.
    We know this because the BIA has told us so. Its now 
infamous briefing paper prepared by BIA staff 2 weeks before it 
granted recognition, in that paper was outlined the strategy 
for BIA officials to overturn existing agency precedent and 
ignore Federal regulations in order to find in the 
Schaghticokes' favor. In the briefing paper, BIA staff informed 
their superiors that key evidence of political authority, 
evidence necessary to grant recognition, was, quote, ``absent 
or insufficient for two substantial historical periods,'' close 
quote.
    Furthermore, the briefing paper freely admits that 
declining to acknowledge the Schaghticoke, quote, ``maintains 
the current interpretations of the regulations and established 
precedents on how continuous tribal existence is 
demonstrated.''
    Faced with the evidence and the law that demanded a 
negative result, the BIA ignored the evidence, cast aside 
precedent and reinterpreted the law. This is not how the people 
of America expect their government to operate.
    Last December, the Interior Department's Office of the 
Solicitor advised the Interior Department that the BIA used an 
unprecedented methodology and made material mathematical errors 
in calculating tribal marriage rates. Without these mistakes 
and unprecedented methodologies, the Schaghticoke petition 
would not have satisfied key criteria and should not be 
recognized.
    Even the Office of the Solicitor advises the Interior Board 
of Indian Appeals, where the case is now being appealed, that 
the BIA's decision, quote, ``should not be affirmed on these 
grounds absent explanation or new evidence,'' unquote.
    Given the grave consequences of the BIA's unlawful 
decisions, I recently introduced the Schaghticoke 
Acknowledgment Repeal Act of 2005 in the House of 
Representatives. This bill overturns the BIA's erroneous 
decision to grant Federal recognition. This legislation 
recognizes the fact that Congress cannot allow the result of an 
unlawful Federal recognition process to stand. I respectfully 
urge this Committee to review it and consider it as you move 
forward with your work.
    The committee is rightly examining the recognition process 
writ large. I wholeheartedly support this effort and I support 
legislation introduced by my colleagues to make the process 
fair, objective and accountable to the public. But I would 
remind the committee that prospective reforms to the 
recognition process will not fix the BIA's erroneous and 
unlawful decision in regard to the Schaghticoke Tribe. It may 
not prevent the financial interests backing this petition from 
moving forward to their goal, a Las Vegas-style casino in an 
area of Connecticut that does not want one and cannot support 
one.
    Mr. Chairman, members of the committee, the BIA has failed 
the people of Connecticut and I believe the United States. I 
respectfully urge this committee not only to look toward 
reforming the BIA recognition process, but also correcting its 
past failures as in its decision regarding the Schaghticoke 
case. The reasons for moving forward with strong reform are 
plentiful. The reasons for accepting the status quo are 
nonexistent. I believe that the public's trust in good and 
responsible government requires action by this committee and 
this Congress.
    I thank you for making this opportunity available for us 
this morning.
    The Chairman. Thank you very much, Congresswoman Johnson. 
Thank you for taking the time to be with us today.
    Congressman Shays.

 STATEMENT OF HON. CHRISTOPHER SHAYS, U.S. REPRESENTATIVE FROM 
                          CONNECTICUT

    Mr. Shays. Thank you, Senator McCain, Senator Dorgan, 
Senator Crapo, and Mr. Inouye for his statement. This is a 
privilege to be before you and a privilege to welcome our 
Governor as well.
    The bottomline for me is the recognition process is corrupt 
and has been for years. Regretfully, Indian recognition is too 
often not about recognizing true Indian tribes, but it is about 
Indian gaming and the license to print money. In the State of 
Connecticut, we are talking literally about billions of 
dollars. Senator Inouye is right. Applications had been in the 
process for a long period of time, but they were dormant and 
not actively pursued by the tribes. But when Indian gaming came 
along, all of a sudden you saw huge financial backers.
    I defy anyone to suggest that huge financial backers are 
going to back Indian tribes if it is not about Indian gaming. 
The problem is, we have a process that has been totally 
ignored. First, it was ignored by the Congress just passing 
legislation every month recognizing tribes, bypassing the BIA. 
I became very active in this process in the late 1980's when 
the Golden Hill Paugussett Tribe came to me after making land 
claims on a good chunk of the Fourth Congressional District and 
said, they go away; they go away simply, Congressman, by you 
doing what you need to do, and that is to put a bill in and 
give us recognition through Congress, like had been done for 
the Ledger Tribe.
    I said I would not do it. They then said, well, it is 
happening every month. I watched this process. It was happening 
through suspension, two-thirds vote, no amendments allowed, two 
members on the floor, no one asking for a roll-call vote. So I 
made it my mission, along with Frank Wolf, in the early 1990's 
to go and kill every bill that came before the Congress, 
thinking then that we had solved the problem. It would go 
before the BIA and the BIA, of course, would do it right. They 
would follow the process of the seven criteria; show economic, 
social and political continuity, pre-colonial times.
    And we found it started to be ignored. I had staff of the 
BIA say, we write our reports and the political appointees are 
ignoring them. In fact, what they did in one case that was 
described to me, they took the worst part out of each of the 
three people who had written the report, and then compiled 
their own report, coming to a totally different conclusion than 
all three had said. All three had said this is not an Indian 
tribe, but in the end the political appointees said it was.
    I particularly have focused on the Golden Hill Paugussetts 
because the Secretary who was appointed to the BIA, and this 
deals with the revolving door issue, said, ``I will not rule on 
the Golden Hill Paugussetts. I will not rule on it.'' And then 
what he did, though, was he ignored the criteria on another 
tribe and said State recognition is important. If you are a 
State tribe, you must be a Federal tribe. But the State does 
not recognize continuity. What the State of Connecticut does is 
recognize reservations. There may be no one on the reservation. 
They may not have met for years. But I can tell you now, they 
are meeting now with the credible incentive to be able to print 
money and make billions of dollars.
    You have a revolving door process because what did this 
gentleman do who recognized another tribe? He helped his own 
former client. His own former client is a State tribe. He said 
he would not get involved, but he set a precedent that a State 
tribe would be a Federal tribe, even though it was not of the 
criteria.
    Let me just conclude by saying to you, the BIA is 
understaffed and it is underfunded. That is clear. You have a 
very real problem that you are continually getting more 
applications. I would suggest the following. One is codify the 
law to make sure that the seven criteria is the law and that 
you do not have people in the revolving door process who change 
it. Deal with the revolving door issue. And the third thing I 
would suggest is that you require all applicants to apply by a 
certain time. Let's understand how many tribes are out there. 
Let's not wonder if 10 years from now you are going to have 
another application. Say, if you are a Federal tribe now, by a 
certain date apply. And then we can know the universe and you 
can know how to fund.
    I will end by saying I think you need to have the 
codification by law of the seven criteria. I think you need to 
deal with the revolving door issue. I think you need to require 
all potential tribes to file at a certain time so you know the 
universe. And I think you need to undo what was illegal action 
by the BIA under Ms. Johnson's request for law.
    Thank you very much.
    The Chairman. Thank you very much.
    Congressman Simmons.

  STATEMENT OF HON. ROBERT SIMMONS, U.S. REPRESENTATIVE FROM 
                          CONNECTICUT

    Mr. Simmons. Thank you, Mr. Chairman, Vice Chairman Dorgan, 
for having this very important hearing.
    You have heard many of the things that I would have said. I 
would ask that my full statement be inserted into the record.
    The Chairman. Without objection.
    Mr. Simmons. I appreciate that.
    Let me focus on a comment by Senator Inouye. He made the 
comment that some tribes have petitioned for recognition prior 
to the passage of the National Indian Gaming Act. That is 
correct. But the fact of the National Indian Gaming Act has 
changed the conditions and circumstances of petitioning groups 
in Connecticut because very wealthy interests have now come 
into the process and as a consequence have changed the process 
through the incredible influence of money. That is why we are 
calling for transparency in the process and for reform of the 
process.
    Mr. Donald Trump has been backing one of the petitioning 
tribes. He was previously. My guess is he is not backing them 
because he is interested in achieving sovereignty for that 
group. My guess is he is backing them because he wants to get 
on the gaming train. That is his career. That is his life.
    My guess is that is the motivation of the other 
millionaires and billionaires who are involved in supporting 
petitioning groups from Connecticut, because they have seen 
that the Foxwoods Casino and the Mohegan Sun Casino can 
generate literally billions of dollars because of their 
location in a small densely populated State in New England 
between Boston and New York. It is a perfect market. And that 
is what is happening here. That is a fact and that is the 
reality. My colleagues, Mrs. Johnson, Mr. Shays, have provided 
the documentary evidence some of which is coming out of the BIA 
itself that proves these points.
    We thank you, Mr. Chairman, for your consideration of these 
reforms. Point 1, the regulatory requirements should be in 
statute. It is just that simple. Senator Inouye suggests that 
State recognition should be a good reason for Federal 
recognition. That is not in the regulatory requirements. Those 
seven requirements should be made statutory, and that is what 
our legislation does.
    Point 2, political appointees and other employees of the 
Bureau of Indian Affairs should not be subject to the revolving 
door exemption. We have clear-cut examples of where these 
individuals have made decisions on 1 day, have left office and 
have gone to work for gambling interests or tribes with 
gambling interests the next day. That is simply wrong, and yet 
it has happened. And given the large amounts of money involved 
in this process, it is reasonable that it will happen again.
    Senator Dorgan. Congressman Simmons, would you submit 
examples of that? You indicated there is evidence of that. 
Would you submit them to the committee?
    Mr. Simmons. Absolutely.
    Again in closing, Mr. Chairman, Mr. Vice Chairman, we thank 
you for holding this hearing and we appreciate your listening 
to our concerns.
    [Prepared statement of Representative Simmons appears in 
appendix.]
    The Chairman. Thank you very much. I thank you all for 
coming today, and thank you for your valuable input. I can 
assure you we will certainly include them in our deliberations 
as we seek to address this very serious issue.
    Ms. Johnson. Mr. Chairman, I assume my whole statement will 
be included in the record. I forgot to mention that.
    The Chairman. No; thank you very much. [Laughter.]
    Thank you all.
    Now, we would like to welcome the distinguished Governor of 
the State of Connecticut, Jodi Rell. Governor, thank you for 
your patience this morning and thank you for coming down to 
visit us and give us the benefit of your experience on this 
issue and your recommendations. Thank you very much.

   STATEMENT OF M. JODI RELL, GOVERNOR, STATE OF CONNECTICUT

    Mr. Rell. Thank you, Senator. I actually should say thank 
you for your patience this morning. I know that sitting and 
listening to testimony sometimes you think you have heard it 
all before. In a way, I am sitting here thinking I have already 
heard my colleagues earlier.
    I have a few new things to offer, but truly we appreciate 
your patience and thank you for actually having this public 
hearing, and Vice Chairman Dorgan for being here as well. It is 
a pleasure to be here.
    As you have heard, my name is Jodi Rell, and I serve as 
Governor of the great State of Connecticut. I truly appreciate 
the fact that you have scheduled this hearing, and for inviting 
me to be here today.
    I want to say right now, I thank the Connecticut delegation 
for their unrelenting efforts to address the weaknesses and the 
failings of the tribal recognition process. As you heard from 
one of our illustrious Senators earlier, I appear before you 
today giving my first congressional testimony as Governor. I do 
that because this is a critical issue to our State. Simply put, 
I believe that a number of profound problems exist within the 
recognition process and that reform is long overdue.
    My concerns go to the issue of integrity and transparency, 
not to any particular tribe or to their right to seek and 
receive recognition. My State's history is inextricably 
intertwined with Native American history. We embrace our 
heritage and have solid relationships with the Mohegan and 
Mashantucket Pequot Nations, both of which are located in our 
State.
    The process of recognition is lengthy and arduous, and for 
good reason. A successful petition will dramatically change the 
landscape of an entire community, an entire region, or a State. 
You have heard it this morning. Connecticut is a small State. 
It is as old as our Nation itself and densely populated. We 
have few expanses of open or undeveloped land. Historical 
reservation lands no longer exist. They are now cities and 
towns filled with family homes, churches and schools.
    Our experience is that tribes file land claims within the 
State as they are seeking and pursuing Federal recognition. 
These claims place a cloud on the property titles of residents, 
resulting in many hardships and a lot of uncertainty. They de-
stabilize the housing market and they compromise the ability of 
people to sell their property free and clear in terms of title.
    This issue was very real to hundreds of thousands of 
Connecticut residents who lived under the threat of land claims 
by the Golden Hill Paugussetts. We fought this recognition 
based on its inadequacies in the law, and we prevailed. But the 
BIA has shown an increasing willingness to be flexible, to be 
permissive, and to set aside the dictates of law in favor of 
granting recognition at all costs.
    If a tribe cannot meet the criteria of law, it should not 
be granted recognition, and yet it has on two occasions in 
Connecticut. I cannot help but conclude that the process by 
which recognition is made is broken. It is fatally flawed. It 
is inconsistent and often illogical. It is replete with 
conflicts of interest and disdain for the letter and the spirit 
of the law. It has resulted in immeasurable loss of public 
confidence and an immeasurable lack of administrative 
integrity.
    The two recent decisions impacting Connecticut show the 
BIA's recognition system is in need of a wholesale 
restructuring. In the case of the Eastern Pequot and Pawcatuck 
Eastern Pequot petitions, the BIA miraculously achieved what 
neither petitioner could or wanted to do. The BIA found that 
both tribes were a single historical entity, even though the 
tribes themselves could not agree on this, and in fact did not 
seek joint designation. Recognition could not have been 
achieved individually, so the BIA said let's merge them 
together, and they merged the petitions and the tribes in order 
to grant recognition.
    More recently, the decision to recognize the Schaghticoke 
demonstrates what many have long suspected. The BIA is awarding 
Federal recognition to tribes regardless of the evidence to the 
contrary. In 2002, the BIA issued a proposed finding that the 
tribe did not meet all of the seven criteria for recognition. 
And yet a little more than 1 year later, the BIA reversed 
itself and recognition was granted. An investigation of this 
astonishing reversal revealed a memo written by BIA staff just 
2 weeks before the final determination, in which the staff 
admitted that the BIA had full knowledge that the tribe had not 
met that seven mandatory criteria for recognition.
    These situations raise troubling questions and the very 
integrity of the administration.
    The Chairman. Will you submit that memorandum for the 
record please?
    Mr. Rell. I did.
    [Referenced document appears in appendix.]
    Mr. Rell. They demonstrate that there must be more control 
over the recognition process.
    I recommend the following, and some you have already heard 
from our Congressmen and -woman this morning. Codify in statute 
the seven mandatory criteria. It is imperative that we do so. 
Impose an immediate moratorium on all BIA acknowledgment 
decisions pending a comprehensive review of the process. You 
have heard about eliminating the Federal revolving door 
exemption. Examine how the process is usurping the powers of 
State and local governments. Prohibit the ability of tribes to 
place liens on property. And finally, invalidate the 
Schaghticoke decision.
    In conclusion, the BIA is a bureaucracy run amok. 
Legitimate tribes should have legitimate opportunities to seek 
Federal recognition, but the criteria and the laws in granting 
recognition must be clearly and stringently adhered to. Rules 
should not be changed in order to achieve a desired result.
    Mr. Chairman, thank you for your time this morning. Thank 
you on behalf of the people of Connecticut. I ask you to please 
consider the current unrestrained process and what effect it 
has on our State and on others.
    Thank you, Mr. Chairman.
    [Prepared statement of Governor Rell appears in appendix.]
    The Chairman. Thank you very much, Governor. Are both those 
tribes that you referred to, are there plans to engage in 
gaming?
    Mr. Rell. It is our belief that that is exactly what they 
plan to do.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Governor, let me thank you. As you 
indicated, there has been a rather consistent message from the 
Connecticut congressional delegation and from you, and I think 
you are raising important issues, and your contribution to the 
discussion we will have on the committee is very significant.
    Thank you for being here.
    Mr. Rell. Thank you very much.
    The Chairman. Thank you very much, Governor Rell.
    Our next panel is Mary Kendall, the deputy inspector 
general, Department of the Interior; and Lee Fleming, director, 
Federal Acknowledgment, Office of Indian Affairs.
    Good morning and welcome. We will begin with you, Ms. 
Kendall.

    STATEMENT OF MARY L. KENDALL, DEPUTY INSPECTOR GENERAL, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Good morning, Mr. Chairman, Mr. Vice Chairman. 
I am pleased to be here representing the Office of Inspector 
General for the Department of the Interior and to testify about 
my office's oversight activities concerning the Federal 
acknowledgment process administered by the Department of the 
Interior.
    As you know, the Office of Inspector General has oversight 
responsibility for all programs and operations at the 
Department. However, because the Inspector General Act 
specifically precludes my office from exercising any 
programmatic responsibility, we cannot and do not substitute 
our judgment for substantive decisions or actions taken by the 
Department of its Bureaus.
    Given our vast oversight responsibilities, the OIG does not 
have subject-matter experts in all of the program areas in 
which we conduct our audits, investigations and evaluations. 
This is especially true in the area of Federal acknowledgment, 
which typically involves the review and evaluation of evidence 
by professional historians, genealogists and cultural 
anthropologists.
    When my office undertakes to address concerns about the 
operation or management of a DOI program, we first look at the 
established process by which decisions or actions in that 
particular program take place and the controls over that 
process. Once we determine what the established process is to 
address the issue at hand, we then look to see whether there 
has been any deviation from that process. If we determine that 
deviation has occurred, we will go on to attempt to determine 
the impact of that deviation on the resulting decision or 
action, and whether any inappropriate behavior was involved by 
either Department employees and/or external participants.
    This is how we have conducted investigations of matters 
related to Federal acknowledgment process since Inspector 
General Devaney assumed his position in 1999. As you know and 
have heard here today, the Federal acknowledgment process at 
the Department is governed by regulations. These regulations 
set forth the process by which petitions from groups seeking 
Federal acknowledgment as Indian tribes are considered.
    While this process has been harshly criticized for its lack 
of transparency, based on my office's experience it is 
relatively speaking one of the more transparent processes at 
DOI. The process follows the requirements of the Administrative 
Procedures Act, which include notice and opportunity to 
comment, and an appeal or review mechanism. When we conduct any 
kind of inquiry, my office is always advantaged if a program 
has the backdrop of a well-established process with documented 
requirements and guidelines.
    When conducting an investigation of a program such as 
Federal acknowledgment, we also attempt to identify all key 
participants and endeavor to strategically interview as many of 
these individuals as possible. This includes not only DOI 
personnel, but other interested parties outside of the 
Department.
    In Federal acknowledgment matters, this may include other 
parties identified by the Office of Federal Acknowledgment or 
parties who have expressly signaled an interest in the 
acknowledgment process. Accordingly, when we conduct interviews 
in a given Federal acknowledgment process, we typically begin 
with those Office of Federal Acknowledgment research team 
members who are charged with the petition review process. By 
beginning at this level, we have some historical success at 
discovering irregularities at the very heart of the process.
    For example, in our 2001 investigation of six petitions for 
Federal acknowledgment, some of which have been mentioned here 
today, we discovered that pressure had been exerted by 
political decision-makers on the Office of Federal 
Acknowledgment team members who were responsible for making the 
Federal acknowledgment recommendations. The OFA research team 
members who reported this pressure to us were at the time 
courageous in their coming forward, since my office had not yet 
established its now well-known whistleblower protection 
program.
    At that time, we had to assure each individual who came 
forward that we would do everything necessary to protect them 
from reprisal. Today, however, we have a recognized program in 
place which publicly assures DOI employees that we will assure 
their protection.
    In other cases, we have had considerable success in 
obtaining candid information from DOI employees intent on 
telling my office about their concerns. Therefore, given OFA 
employees' track record in our 2001 investigation, and the 
protections of our now almost 2-year-old whistleblower 
protection program, we feel confident that if any inappropriate 
pressure is being applied, we will hear from the members of the 
OFA team.
    In 2001, we did find that there were some rather disturbing 
deviations from the established process during the previous 
Administration. At that time, several Federal acknowledgment 
decisions had been made by the Acting Assistant Secretary for 
Indian Affairs, which were contrary to the recommendations of 
the OFA research team.
    In several instances, the OFA team felt so strongly that 
they issued memoranda of non-concurrence at some risk to their 
own careers. Although any Assistant Secretary for Indian 
Affairs has the authority to issue his or her decision even if 
it is contrary to OFA's recommendation, we found in those 
particular instances that significant pressure had been placed 
on the research team to issue predetermined recommendations; 
that the decisions were hastened to occur prior to the change 
in Administration; and that all decision documents had not been 
properly signed. As you noted, Mr. Chairman, we even found that 
one of those decision documents had been signed by the former 
Acting Assistant Secretary after leaving office.
    When we reported our findings in February 2002, the new 
Assistant Secretary for Indian Affairs undertook an independent 
review of the petitions. This action alleviated many of our 
concerns about the procedural irregularities we identified in 
our report.
    More recently, in March 2004, we were asked by Senator Dodd 
to investigate the Schaghticoke Tribal Nation acknowledgment 
decision. Subsequent to Senator Dodd's request, the Secretary 
of the Interior specifically requested that my office give this 
matter high priority. In conducting this investigation, we 
interviewed OFA staff, research team members and senior 
Department officials to determine if undue pressure may have 
been exerted. We also spoke to the Connecticut Attorney General 
and members of his staff, as well as affected citizens to 
ascertain their concerns. In this case, as we have in all other 
such investigations, we were also looking for any inappropriate 
lobbying pressure that may have attempted to influence a 
decision one way or the other.
    In the end, we found that although the Schaghticoke Tribal 
Nation acknowledgment decision was highly controversial, OFA 
and the Principal Deputy Assistant Secretary for Indian Affairs 
conducted themselves in keeping with the requirements of the 
administrative process. Their decisionmaking process was made 
transparent by the administrative record, and those parties 
aggrieved by the decision sought relief in the appropriate 
administrative forum. Each, as it should be.
    If I may, I would like to comment briefly on outside 
influences that impact Federal acknowledgment process in Indian 
gaming. As this committee recently demonstrated, greater care 
must be exercised by gaming tribes when they are approached by 
unsavory Indian gaming lobbyists promising imperceptible 
services for astonishing fees. We know of no statutory or 
regulatory safeguard protections against such lobbying efforts, 
or the often questionable financial backing of the Federal 
acknowledgment process.
    That being said, however, given the spate of media 
attention of alleged improper influences relating to Indian 
programs, our office now includes in its scope of investigation 
an inquiry into any lobbying or other financial influences that 
might bear on the issue or program at hand, with a view toward 
targeting improper lobbying access and/or influence in the 
Department of the Interior.
    The transparency that attaches itself to the Federal 
acknowledgment process is often obscured when it comes to those 
who would use this process as an instant opportunity for 
opening a casino. Last year in a prosecution stemming from one 
of our investigations, the U.S. Attorney's office for the 
Northern District of New York secured a guilty plea by an 
individual who had submitted fraudulent documents in an effort 
to obtain Federal acknowledgment for a group known as the 
Western Mohegan Tribe and Nation of New York. Throughout trial, 
the prosecution contended that the fraudulent application was 
made in the hope of initiating gaming and casino operations in 
Upstate New York.
    We are hopeful that this conviction has sent a clear 
message to others who would attempt to corrupt the Federal 
acknowledgment process, particularly when motivated by gaming 
interests. This process is clearly fraught with the potential 
for abuse, including inappropriate lobbying activities and 
unsavory characters attempting to gain an illicit foothold in 
Indian gaming operations.
    We will continue to aggressively investigate allegations of 
fraud or impropriety in the Federal acknowledgment process. We 
are presently conducting an exhaustive investigation into the 
genesis of questionable documents that were submitted into the 
record for a group known as the Webster/Dudley Nipmuc Band 
pending before the Interior Board of Indian Appeals.
    In addition, as the Inspector General testified before this 
committee as recently as last month, our office has been 
reviewing our audit and investigative authorities in Indian 
country to determine whether we can establish an even more 
vigorous presence in the gaming arena.
    Mr. Chairman, Mr. Vice Chairman, this concludes my formal 
remarks today and I would be happy to answer any questions you 
might have.
    [Prepared statement of Ms. Kendall appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Fleming.

 STATEMENT OF LEE FLEMING, DIRECTOR OF FEDERAL ACKNOWLEDGMENT, 
      OFFICE OF INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Fleming. Good morning, Mr. Chairman, and members of the 
committee. My name is Lee Fleming, director of the Office of 
Federal Acknowledgment within the Office of the Assistant 
Secretary at the Department of the Interior.
    I am also a member and a former tribal registrar of the 
Cherokee Nation, the second-largest Indian tribe in the United 
States, next to the Navajo. As tribal registrar, I directed a 
staff that processed applications of individuals seeking formal 
recognition as members or citizens of the Cherokee Nation under 
Cherokee law. I am here today to provide the Administration's 
testimony regarding the process that groups follow when seeking 
Federal acknowledgment as an Indian tribe under Part 83 of 
Title 25 of the Code of Federal Regulations.
    The Federal acknowledgment regulations govern the 
Department's administrative process for determining which 
groups are Indian tribes within the meaning of Federal law. The 
Department's regulations are intended to apply to groups that 
can establish a substantially continuous tribal existence and 
that have functioned as autonomous entities throughout history 
until the present. When the Department acknowledges an Indian 
tribe, it is acknowledging that an inherent sovereign continues 
to exist.
    Under the Department's regulations, petitioning groups must 
demonstrate that they meet each of seven mandatory criteria. 
The petition must, first, demonstrate that it has been 
identified as an American Indian entity on a substantially 
continuous basis since 1900; second, show that a predominant 
portion of the petitioning group comprises a distinct community 
and has existed as a community from historical times until the 
present; third, demonstrate that it has maintained political 
influence or authority over its members as an autonomous entity 
from historical times to the present; fourth, provide a copy of 
the group's present governing document, including its 
membership criteria; fifth, demonstrate that its membership 
consists of individuals who descend from the historical tribe 
and provide a current membership list; sixth, show that the 
membership of the petitioning group is composed principally of 
persons who are not members of any federally recognized Indian 
tribe; and last, seventh, demonstrate that neither the 
petitioner nor its members are the subject of congressional 
legislation that has expressly terminated or forbidden the 
Federal relationship.
    A criterion is considered met if the available evidence 
establishes a reasonable likelihood of the validity of the 
facts relating to that criterion. The Federal acknowledgment 
process is implemented by the Office of Federal Acknowledgment. 
This Office is authorized to be staffed with a director, a 
secretary, three anthropologists, three genealogists and three 
historians, who are all hardworking civil servants. The current 
workload consists of seven petitions on active consideration 
and 12 fully documented petitions that are ready waiting for 
active consideration.
    The administrative records for some completed petitions 
have been in excess of 30,000 pages. We have 220 groups who 
have only submitted letters of intent or partial documentation. 
These groups are not ready for evaluation. We have five final 
determinations representing four petitioners who are under 
review at the Interior Board of Indian Appeals.
    In addition, there are pending lawsuits related to the 
Federal acknowledgment process. In November 2001, the General 
Accounting Office, now the General Accountability Office, 
issued a report entitled Indian Issues: Improvements needed in 
the Federal Recognition Process. The GAO made two primary 
findings in this report. First, the Federal acknowledgment 
decisionmaking process is not sufficiently transparent; and 
second, it is unequipped to respond in a timely manner.
    In response to the GAO report, the Assistant Secretary for 
Indian Affairs implemented a strategic plan to provide 
strategies to communicate a clearer understanding of the basis 
of Federal acknowledgment decisions and to improve the 
timeliness of the acknowledgment process. I shall describe now 
many of the strategic plan elements that have been implemented 
and completed.
    One, all proposed findings, final determinations and 
reconsidered determinations were electronically scanned and 
indexed and are now available on a CD-ROM. I might say this is 
the hottest item that groups are now asking for, as well as 
interested parties. Immediate and user-friendly access to all 
prior decisions enhances both transparency and consistency in 
the decisionmaking-process.
    Two, OFA filled two professional staff vacancies, resulting 
in the formation of three functioning teams composed of one 
professional from each of the three disciplines. With three 
teams, the OFA has increased its ability to review petitions 
and their accompanying documentation in a timely manner. I am 
pleased to announce that the Department is taking steps to add 
a fourth team with associated administrative support.
    OFA also has hired two sets of independent contractors to 
assist with the administrative functions of processing FOIA, 
Freedom of Information Act requests, and two, the work with a 
computer database system known as FAIR. FAIR stands for the 
Federal Acknowledgment Information Resource system. It is a 
computer database that provides on-screen access to all the 
documents in the administrative record of a case and has made a 
significant positive impact on the efficiency of the office.
    We anticipate that the next generation of scanning for FAIR 
will allow electronic redaction of privacy information from the 
documents which will save the Department a tremendous amount of 
time otherwise spent photocopying cases for interested parties 
and responding to FOIA requests.
    Another significant improvement made to the Federal 
acknowledgment process was the realignment of the office, now 
within the Office of the Assistant Secretary. This realignment 
eliminated two layers of review and now provides more direct 
and efficient policy guidance.
    Due to the improvements just mentioned, the office was able 
to assist the Department in completing 17 major Federal 
acknowledgment decisions since January 2001. These 17 decisions 
include 9 proposed findings, 6 final determinations, and 2 
reconsidered final determinations. On April 1, 2004, Secretary 
Norton requested that the Indian Affairs review the strategic 
plan and ensure that all the appropriate steps were being taken 
to implement the strategies developed in the plan. As 
discussed, the Department has completed many of the action 
items identified in the strategic plan. We have nearly 
completed all the remaining tasks that are within the control 
of the Department. Some tasks will take longer to implement 
because they may require congressional action, regulatory 
amendments or access to the Internet.
    In addition, on March 31, 2005, we formalized an already-
internal policy of the Assistant Secretary's office that 
prohibits Federal acknowledgment decision-makers from having 
contact and communications with a petitioner or interested 
party within 60 days of an acknowledgment decision. The 
Department published notice in the Federal Register of this 
policy which will help ensure that all parties are made aware 
of the 60-day period and that the integrity of the process is 
protected.
    Thank you for the opportunity to testify about the Federal 
acknowledgment process. I will be happy to answer any questions 
you may have.
    The Chairman. Thank you very much, Mr. Fleming.
    Ms. Kendall, you find nothing wrong with casino interests 
providing financial backing for tribes seeking recognition. Is 
that what you testified to?
    Ms. Kendall. Not exactly, Mr. Chairman. We are concerned 
about the financial backing issues and the lobbying access to 
the Department. What we did not find anything wrong with was 
the actual process by which the acknowledgment was rendered.
    The Chairman. Well, let's look at a situation in the State 
of North Dakota. There is an entity seeking recognition and 
they are in a sparsely populated area, probably not a good 
place for a casino to be located. It would probably be pretty 
difficult for Mr. Trump to come in in his zeal and advocacy for 
Native Americans to probably go in there. Yet, you have an 
entity in the Northeast that is seeking recognition, as was 
testified by Congressman Shays, that gaming interests come in 
and provide the financial backing for them.
    Isn't there something wrong with that picture?
    Ms. Kendall. I do not disagree with you, Mr. Chairman. I 
think there is something wrong with that picture. Our concern 
is that there is no statutory or regulatory mechanism presently 
in place that would regulate or control that access.
    The Chairman. You know, at one time the Inspector General 
called the recognition process permissive and inherently 
flexible. Do you think that some of the changes that have been 
made since then probably would make for a different 
description?
    Ms. Kendall. I am not familiar with that description, Mr. 
Chairman.
    The Chairman. Do you believe that that is the case today?
    Ms. Kendall. I am not sure that I could say that I believe 
it is the case. I believe, as both a lawyer and a career civil 
servant, that the administrative process that governs the 
tribal acknowledgment process should ferret out that kind of 
problem if it is not founded in law or regulation.
    The Chairman. I think you obviously agree that we should 
have the same revolving door provisions for employees of the 
BIA as we have for other branches of government.
    Ms. Kendall. I believe Mr. Devaney testified last month 
when he appeared before this committee that he, and I agree 
with him, believes that the revolving door provision that 
allows people to leave the Department and immediately represent 
tribes is a provision that has outlived its purpose, yes.
    The Chairman. You testified that an investigation in 2001 
revealed that there were improprieties.
    Ms. Kendall. Yes, sir.
    The Chairman. Who were the individuals who acted 
improperly?
    Ms. Kendall. Our finding in that investigation specifically 
was the acting assistant secretary at the time, who
    The Chairman. Whose name is?
    Ms. Kendall. I believe it was Michael Anderson, Mr. 
Chairman.
    The Chairman. Do you know what Mr. Anderson does today?
    Ms. Kendall. I believe he is with a law firm.
    The Chairman. That represents Native Americans?
    Ms. Kendall. That is my understanding, yes, sir.
    The Chairman. But there were never any charges brought 
against Mr. Anderson.
    Ms. Kendall. At the time, our investigation concluded, and 
actually at the time he signed the documents, he was no longer 
an employee of the Department.
    The Chairman. So he is no longer an employee, so therefore 
he did not fall under any Federal regulations or law.
    Ms. Kendall. He did not fall under our jurisdiction, Mr. 
Chairman. And as a former employee, the Department had no 
authority to take any administrative action against him.
    The Chairman. I understand.
    Mr. Fleming, how many new letters of intent, approximately, 
have you received since 1988, the passage of the Indian Gaming 
Regulatory Act?
    Mr. Fleming. I would have to quantify that for you, but I 
can give you an idea of the number of petitioners that were 
received before and after 1988. As an example, in 1980, we 
received 10 petitioning group letters of intent; in 1981, 
seven; in 1982, five; in 1983, seven; in 1984, seven; in 1985, 
five; in 1986, zero; in 1987, two.
    In 1988, we received five; in 1989; six; in 1990, seven; in 
1991, five; in 1992, eight; in 1993, seven; in 1994, nine; and 
then in 1995, we received 17; in 1996, 12; in 1997, nine; in 
1998, 21; in 1999, 17; in 2000, 15; in 2001, 13; in 2002, 19; 
in 2003, 12; and in 2004, nine.
    The Chairman. Thank you very much.
    How many final decisions do you anticipate making over the 
next several years, roughly?
    Mr. Fleming. Roughly, we have seven groups that are on 
active consideration that are awaiting final actions. They are 
in various stages, either during a public comment period, 
response period, or the development of final determinations.
    The Chairman. In your written testimony, you said on the 
issue of other improvements to the Federal acknowledgment 
process, you say some tasks will take longer to implement 
because they may require congressional action, regulatory 
amendments or access to the Internet. What are these 
congressional actions that you think may need to be taken?
    Mr. Fleming. We have discussed the congressional assistance 
with dealing with our Freedom of Information Act requests. We 
have discussed and provided testimony in the past that the 
Department does support sunset rules so that we would know a 
finite number of petitioning groups yet to address, and those 
are some of the aspects that would need congressional action.
    The Chairman. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Fleming, let me just try to run through 
what I think is your workload. You say 7 petitions on active 
status; 12 petitions on ready status, as I understand it. Is 
that correct?
    Mr. Fleming. That is correct.
    Senator Dorgan. Let me just for my own interest, of the 
seven petitions on active status, what would be the length of 
time that those petitions have been moving around this process? 
How old would some of the older petitions be in those seven?
    Mr. Fleming. Some of the petitioning groups in this 
category have been on active consideration for some time, but 
there are circumstances that are involved. They ask for a 
request for reconsideration or extensions to public comment 
periods, et cetera.
    I can provide the office with some statistics that the GAO 
did in its review, where it analyzed what time was expended by 
the petitioner in developing the petition; and then the times 
that were expended in the various phases of the regulatory time 
frames. I can provide that to the committee.
    Senator Dorgan. That would be helpful. The numbers that you 
read of petitions, or rather letters of intent, for example, by 
year seem to suggest an increasing number of letters yearly, or 
at least the trend line would look like it is up in recent 
years. You have, as I see it on my sheet, 220 either incomplete 
petitions or letters of intent to petition, something in that 
neighborhood. Is that correct?
    Mr. Fleming. Right. A good number of those petitions not 
ready for evaluation have only submitted letters of intent.
    Senator Dorgan. Yes; there have been 15 petitions that are 
through the acknowledgment process and have been acknowledged, 
and 19 denied. Since the advent of regulations, there have been 
roughly 34 disposed of, either positively or negatively, 15 
approved, 19 disapproved. Is that correct?
    Mr. Fleming. That is correct.
    Senator Dorgan. If you will send us, I would be interested 
in the process, how long it takes and so on. I think all of 
that would be helpful to us. I appreciate the testimony.
    One just quick question, because you are dealing with a 
regulation here, or administrative determination in rule or 
regulation, rather than a law, is there any advantage to 
incorporating these requirements in law as opposed to having 
them in a regulatory framework?
    Mr. Fleming. I believe in past oversight hearings, the 
Department had testified that it would support statutory 
establishment of the process.
    Senator Dorgan. I was asking whether there is any inherent 
advantage to that, that you can think of, you or Ms. Kendall.
    Ms. Kendall. Mr. Vice Chairman, my feeling is a personal 
feeling. I think if the process is working as it ought, and we 
believe it is, that there would be no inherent benefit to 
putting this into statute as opposed to regulation. I think 
both have the power and effect of law.
    Senator Dorgan. Right. If there had been successful 
challenges of the regulation in certain areas, then obviously 
legislation would be preferable.
    Thank you both for your testimony. I appreciate your being 
here.
    Ms. Kendall. Thank you.
    The Chairman. Thank you very much.
    Our next panel is Richard Velky, chief, Schaghticoke Tribal 
Nation; Stephen Adkins, chief, Chickahominy Indian Tribe; John 
Barnett, chairman, Cowlitz Indian Tribe; Kathleen Bragdon, 
professor, Department of Anthropology, College of William and 
Mary; and Ken Cooper, president, Town Action to Save Kent, 
South Kent, CT.
    I would like to welcome the witnesses and we will begin 
with the Honorable Richard Velky. Welcome.

   STATEMENT OF RICHARD L. VELKY, CHIEF, SCHAGHTICOKE TRIBAL 
                             NATION

    Mr. Velky. Thank you. Good morning, Mr. Chairman.
    The Chairman. Good morning. Could I just mention that the 
written testimony of all witnesses will be made a part of the 
record, and if we could, we would like to see 5-minute opening 
statements. Thank you.
    Mr. Velky. Thank you, Mr. Chairman.
    My name is Richard Velky. I am the chief of the 
Schaghticoke Tribal Nation. If I could, I would like to 
recognize the vice chairman, Michael Pane, who made the trip 
also with me and a few tribal members here in the audience, if 
they would please stand.
    The Chairman. Welcome.
    Mr. Velky. And also Chairman Brown from the Mohegans I see 
has also joined us in the audience here. I would like to 
recognize him, too.
    Mr. Chairman, I appreciate this opportunity and the 5 
minutes to explain who the Schaghticoke Tribal Nation is and 
what we went about. It is very brief, and I appreciate being 
able to submit the written testimony.
    I will tell you what the Schaghticoke Tribal Nation has 
gone through in order to achieve the status of recognition. In 
1981, the tribe made a decision to go for Federal recognition. 
What we did by that is submit a letter of intent to the Branch 
of Acknowledgment and Research. Upon receipt of that letter, we 
were told that we needed to achieve seven criteria in order to 
be recognized for the Federal recognition status. So we started 
out fulfilling those seven criteria.
    It was not until 1994 until we submitted our petition to 
the branch of Acknowledgment and Research. When we did this, we 
took the time and the courtesy to knock on the doors of the 
Senators who testified in front of us today and some of the 
congressional leaders to let them know the intentions of the 
Schaghticoke Tribal Nation; that we looked to achieve our 
Federal recognition status and to stand among our brothers and 
sisters in the eastern part of the State.
    They made it very clear to us, stay within the rules; do 
not try a legislative move to achieve your Federal recognition; 
we will do everything we can to stop you. We understood where 
they were coming from, although it was not too appreciated. We 
knew we had a long road ahead of us. From 1994 until the 
present time, we have submitted three volumes of documentation, 
probably some 2,500 pages of information on the Schaghticoke 
Nation. Believe it or not, in 1994 we probably had our best 
chance then to achieve the recognition status because things 
were not the way they are today in Connecticut.
    However, we needed full accountability of our tribe and we 
proceeded to fill out our documentation and today we have some 
30,000 pages of information. We are a small tribe in the 
northwest corner of the State of Connecticut. At that time, in 
the 1700's we had some 2,000 acres. Today, we are left with 
only about 400 acres of a rocky hillside. That was our reason 
and our determination to save our sovereignty, our heritage and 
our culture for our generations to come.
    We were successful. The preliminary findings that you spoke 
of that were negative and the reversed them into a positive 
decision is a process that we all go through. At first when we 
submit our information, we are given an obvious deficiency. We 
take this information; we conduct it into what is needed; and 
we submit it to see how we stand in the standing of the seven 
criteria. When the tribe feels they are completely eligible to 
reach the seven criteria, they let the BAR know. Today, it is 
OFA.
    We felt that position after our preliminary finding. We 
submitted more documentation 9 months later and informed them 
that we were eligible to go on for our Federal recognition. 
That is what we did and we were successful.
    To say today that the system does not work; it is corrupt; 
corruptive influences there; are just statements coming out of 
our legislation. We, the Schaghticokes, are not just going 
through the system. We are also in a Federal court order. If 
any of these allegations that were made today or any other time 
have any evidence of proof to it, I encourage them to take it 
in front of the Federal court, Judge Peter Dorsey, and submit 
it to their testimony and I am sure we will be called in to 
answer to that.
    Our fight for Federal recognition has not been an easy 
road. It took us a quarter of a century to get here. We ask 
this committee here to take a look at the recognition process. 
If there are changes that need to be made and reforms that need 
to be made, it needs to be made in favor of the Native 
Americans seeking the Federal recognition and not the States 
fighting us.
    Financial investors come into this area to play a part. We 
understand that. But it is unfortunate that there are no funds 
there for these tribes, and us included, to get the money 
needed to achieve the fact of a recognition status; 30,000 
pages of information is not light to come by. To fight off the 
State of Connecticut, we need a team of attorneys ourselves. 
Never in my lifetime did I think I would spend so much time 
with attorneys, but today I see I might be becoming one of 
them.
    It is a hard role that the tribes need to focus on. It is 
not easy to sustain. We only ask that when we finally get to 
this end of the road, that the committee take a serious attempt 
at the BIA and any other process that the States or our 
opposition would attempt to stop the tribes from achieving 
their recognition, to stand down and move aside because we 
already made it through the process.
    I thank you for your time this morning.
    [Prepared statement of Mr. Velky appears in appendix.]
    The Chairman. Thank you for being here today.
    Chief Adkins, welcome.

  STATEMENT OF STEPHEN R. ADKINS, CHIEF, CHICKAHOMINY INDIAN 
                             TRIBE

    Mr. Adkins. Thank you, Chairman McCain and Vice Chairman 
Dorgan for inviting me here today to speak on S. 480. Senator 
George Allen introduced this bill.
    A hearing on our prior Federal recognition bill, S. 2694, 
was held by this committee on October 9, 2002. On behalf of the 
six tribes named in S. 480, the Eastern Chickahominy, the 
Monacan, the Nansemond, the Upper Mattponi, the Rappahannock 
and my tribe, the Chickahominy, I am requesting that the 
evidence from that hearing be submitted into today's record. 
That evidence included a strong letter of support from our 
current Governor Mark Warner.
    Beside me today is Professor Danielle Moretti-Langholtz 
from the College of William and Mary who worked on the 
petitions we filed with the BIA. She is prepared to assist with 
any questions you may have about our history. I also have here 
with me today Ken Adams, chief of the Upper Mattaponi, and 
members of the other Virginia tribes, I would ask them to 
please stand.
    I would like to share with you that well-known story of 
Chief Powhatan and his daughter Pocahontas, her picture being 
in this very Capitol Building with her English husband John 
Rolfe. I often say this country is here today because of the 
kindness and hospitality of my forebears in helping the 
colonists at Jamestown gain a foothold in a new and strange 
environment. But what do you know, what does mainstream America 
know about what happened in those years between the 17th 
century and today?
    The fact that we were so prominent in early history and 
then so callously denied our Indian heritage is a story that 
most do not want to remember or recognize. I and those chiefs 
here with me here today stand on the shoulders of Paspahegh, 
who were led by Chief Wowinchopunk, whose wife was captured and 
taken to Jamestown Fort and run through with a sword; whose 
children were tossed overboard and then their brains were shot 
out. With this horrific action in August 1610, a whole nation 
was annihilated, a nation that befriended strangers and 
ultimately died at the hands of those same strangers.
    We are seeking recognition through an act of Congress 
rather than the BIA because of actions taken by the 
Commonwealth of Virginia during the 20th century that sought to 
erase the existence of my people through statutes and 
legislation that have the administrative process nearly 
impossible. The destruction of documents regarding our 
existence during the Civil War and other periods of early 
history pales in comparison to the State sanctioned indignities 
heaped upon my people under the hand of Walter Ashby Plecker, a 
rabid separatist who ruled over the Bureau of Vital Statistics 
for 34 years from 1912 to 1946.
    Although socially unacceptable to kill Indians outright, 
Virginia Indians became fair game to Plecker as he led efforts 
to eradicate all references to Indians on vital records. A 
practice that was supported by the State's establishment when 
the eugenics movement was endorsed by leading State 
universities and when the State's legislature enacted the 
Racial Integrity Act of 1924. That was a law that stayed in 
effect until 1967 and caused my parents to have to travel to 
Washington, DC on February 20, 1935 in order to be married as 
Indians. This vile law forced all segments of the population to 
be registered at birth in one of two categories, white or 
colored, thus legitimizing cultural genocide for Virginia's 
indigenous people.
    Sadly, this tells only part of the story. The effect of 
this period on the racial policies of the State meant that 
Indian people were targeted. It was feared that they would care 
to try to claim their heritage and seek extra protection 
outside the State or with the Federal Government. The policies 
established by Plecker made it illegal to designate Indian on a 
birth certificate or to give an Indian child a traditional 
Indian name. Violations put doctors and midwives at risk of up 
to one year in jail.
    Our anthropologist says there is no other State that 
attacked Indian identity as directly as that attack by those 
laws passed during that period of time in Virginia. No other 
ethnic community's heritage was denied in this way. Our State, 
by law, declared that there were no Indians in the State in 
1924, and if you dared to say differently, you went to jail or 
worse. That law stayed in effect half of my life.
    We are seeking recognition through Congress because this 
history prevented us from believing that we could fit into a 
petitioning process that would either understand or reconcile 
this State action with our heritage. We feared the process 
would not be able to see beyond the corrupted documentation 
that was legally mandated to deny our Indian heritage.
    My father and his peers lived the Plecker years and they 
carried those scars to their graves.
    Chairman McCain, the story I just recounted you is very 
painful and I do not like to tell that story. Many of my people 
will not discuss what I have shared with you, but I felt you 
needed to understand recent history opposite the romanticized, 
inaccurate accounts of 17th century history.
    The six tribes that I am talking about gained State 
recognition in the Commonwealth of Virginia between 1983 and 
1989. Subsequent to State recognition, then the Governor George 
Allen, who is now Senator George Allen, heard and learned our 
story. In 1997, he passed the statute that acknowledged the 
aforementioned discriminatory laws and allowed those with 
Indian heritage to correct their records with costs to be borne 
by the Commonwealth. At that juncture, we began to look ahead 
to Federal recognition. In 1999, we were advised by the BAR 
that many of us would not live long enough to see our petitions 
go through the administrative process. Sir, that is a prophecy 
that has come true. We have buried four Virginia Indian chiefs 
since then.
    The six tribes referenced in S. 480 feel that our situation 
clearly distinguishes us as candidates for congressional 
Federal recognition. As Chief of the Chickahominy Tribe, I have 
persevered in this process for one reason. I do not want my 
family or my tribe to let the legacy of Walter Plecker stand. I 
want the assistance of Congress to give the Indian communities 
in Virginia their freedom from a history that denied their 
Indian identity. Without acknowledgment of our identity, the 
harm of racism is the dominant history. I want my children and 
the next generation to have their Indian heritage honored and 
to move past what I experienced and what my parents 
experienced. We the leaders of these six Virginia tribes are 
asking Congress to help us make history for the Indian people 
in Virginia, a history that honors our ancestors that were here 
at the beginning of this great country.
    Sir, I want to end with a quote credit to Chief Powhatan. 
This quote from Chief Powhatan to John Smith maybe has been 
forgotten, but ironically the message still has relevance 
today, and I quote, ``I wish that your love to us might not be 
less than outs to you. Why should you take by force that which 
you can have from us by love? Why should you destroy us who 
have provided you with food? What can you get by war? In such 
circumstances, my men must watch, and if a twig should break, 
all would cry, `Here comes Captain Smith.' And so in this 
miserable manner to end my miserable life. And, Captain Smith, 
this might soon be your fate, too. I therefore exhort you to 
peaceable councils and above all I insist that the guns and 
swords, the cause of all our jealousy and uneasiness, be 
removed and sent away.''
    Chairman McCain, our bill would give us this peace that 
Chief Powhatan sought. It would honor the treaty our ancestors 
made with the early colonists and the Crown, and it would show 
respect for our heritage and our identity.
    Chairman McCain, I thank you for allowing me the time to 
speak before this committee.
    [Prepared statement of Mr. Adkins appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Barnett, Chairman Barnett.

   STATEMENT OF JOHN BARNETT, CHAIRMAN, COWLITZ INDIAN TRIBE

    Mr. Barnett. Chairman McCain, Vice Chairman Dorgan and 
distinguished members of the Senate Committee on Indian 
Affairs. I thank you for the opportunity to testify this 
morning. To our friend, Senator Maria Cantwell, I bring you 
warm greetings from your Cowlitz constituents home in 
Washington State.
    My name is John Barnett and I am the chairman of the 3,200-
member Cowlitz Indian Tribe of Washington. I have served as 
chairman of our tribe for 24 years. I have made it my personal 
objective to right the historical wrongs that have committed 
against my people. By so doing, I hope to provide a brighter 
future for our next generations.
    The Cowlitz Tribe is a recognition success story. We were 
able to make it through BIA's Federal acknowledgment process 
using only donations from hardworking tribal members to pay for 
the anthropological, genealogical and historical work necessary 
to show that we met the Bureau's seven criteria for 
recognition. It was the commitment, cohesiveness and self-
sacrifice of my people that got us through the recognition 
process without the benefit of funds from outside developers.
    It has been out of my own pocket that I have traveled to 
Washington, DC more than 50 times to advocate on my tribe's 
behalf during the recognition process. Indeed, Mr. Chairman, I 
sat before you in this committee at another recognition hearing 
in 1991, fully 11 years before we finally received Federal 
recognition in 2002.
    I believe it is entirely appropriate that unrecognized 
tribes should meet tough, objective standards before achieving 
Federal acknowledgment. To take a contrary position would 
undermine the credibility of other federally recognized tribes 
and would fuel efforts of unscrupulous developers looking to 
create tribes for no other reason than to create a new Indian 
gaming deal.
    But let me also underscore that the recognition process is 
expensive and time-consuming, and that it has been made more so 
by the efforts of gaming interests, Indian and non-Indian, 
which will spare no expense to block a legitimate tribe's 
efforts to achieve recognition in order to block a potential 
gaming competitor.
    Gaming plays too great a role in the Federal recognition 
process. That role is being played out on both sides, both for 
and against applicant tribes. The only way to remove the 
unwanted influence of gaming on Federal recognition is to give 
BIA enough resources to provide the assistance tribes need so 
that they are not forced to find outside sources of funding.
    The acknowledgment process itself must be streamlined. We 
had to wait more than three years between when we filed our 
notice of intent and when it was published in the Federal 
Register. We had to wait another 4\1/2\ years from publication 
of the NOI until BIA sent us our first technical assistance 
letter. We waited another 5 years after that until we got our 
second technical assistance letter. And then we waited another 
9 years after that before BAR issued proposed findings of fact 
in 1997.
    We did not receive a final determination until 2000, and 
then another tribe challenged the final determination, thereby 
delaying implementation of BIA's decision until they 
reconsidered. Final determination was issued in 2002. From 
start to finish, a quarter of a century.
    Good Senators, I believe that you should be concerned that 
the glacial pace at which recognition petitions are reviewed is 
contributing to other unrecognized tribes' desperate need to 
find alternative funding sources. Because those of us who have 
survived the Federal acknowledgment process emerge as landless 
tribes, the controversial politics of Indian gaming continues 
to haunt us. Without access to Federal funding or economic 
development opportunities, and having spent whatever money we 
had on the recognition process, we are financially destitute. 
Acquiring land costs money.
    The substantial work needed to construct a fee-to-trust 
application also costs money. And now BIA is requiring tribes 
to pay for the development an EIS as part of the trust 
application process. The Cowlitz EIS is will cost more than $1 
million. Where is a newly recognized, landless tribe supposed 
to find that kind of money?
    Mr. Chairman, there is a world of difference between the 
greedy marauding reservation shopping portrayed by the press 
and the sincere, sometimes desperate efforts of newly 
recognized tribes to find a piece of land on which to start 
rebuilding our futures. We are trying to get back on our feet 
after 150 years of no-so-benign neglect. We are trying to build 
homes, government buildings, schools and health clinics. We are 
looking for access to the same economic development 
opportunities already afforded to other tribes lucky enough to 
have a land base on October 17, 1988.
    The Cowlitz Tribe has strong historical and modern 
connections to the land we would like to make our initial 
reservation. We have found a partner to help us get on our feet 
and we are blessed that we found that help within Indian 
country. We are proud to be working with and learning from the 
Mohegan Tribe of Connecticut. In 1994, the Mohegan Tribe also 
successfully emerged from the Federal acknowledgment process as 
a newly recognized landless tribe.
    Chairman McCain, I believe you recently encouraged Mohegan 
Chairman Mark Brown, who is with us this day over in the 
corner, to reinvest in Indian country. The Mohegan Tribe has 
done that. They are helping their Cowlitz cousins from across 
the continent and for that we will forever be grateful.
    I would also like to thank the State of Washington for its 
support of the Federal acknowledgment process. The State 
traditionally has declined to weigh in on the Federal question 
of whether a tribe should be recognized, choosing instead to 
defer to those with specialized expertise to make such 
decisions. Once a tribe is recognized, however, the State is 
very quick to extend its hand to establish a government-to-
government relationship with the newly recognized tribe. We 
appreciate the integrity of the State's actions and the respect 
the State has shown us.
    In closing, I am here to ask you as a good and genuine 
friend of Indian people for so many decades, to ensure that the 
public debate about Federal recognition not be driven by the 
convenient and controversial politics of Indian gaming. I am 
asking that you help frame Federal policy in a way that 
recognizes the real hardships suffered by unrecognized and 
landless tribes, that honorably addresses the historical wrongs 
suffered by our people and that does not deny deserving tribes 
Federal recognition or a reservation simply as a means of 
avoiding the hard politics of Indian gaming.
    I thank you again for giving me an opportunity to speak to 
this committee on these issues so vital to some of the first 
Americans. One additional thought I would like to give to you 
people. Senator McCain, there are those of us that have been in 
the process, went through the process either acknowledged or 
denied. We have a world of talent and ability to give you 
suggestions as to some of the ways perhaps that can be used to 
streamline the process and get to the tribes. For instance, 
over 100 tribes at 2\1/2\ per year will never see anything, 
waiting 50 more years.
    Something has to be done. I think you people fully realize 
that. And some of us, including myself and the Cowlitz people, 
are certainly willing to help.
    [Prepared statement of Mr. Barnett appears in appendix.]
    The Chairman. Thank you very much.
    Dr. Bragdon.

  STATEMENT OF KATHLEEN J. BRAGDON, PROFESSOR, DEPARTMENT OF 
           ANTHROPOLOGY, COLLEGE OF WILLIAM AND MARY

    Ms. Bragdon. Good morning, Chairman McCain and Vice 
Chairman Dorgan, and members of the committee. Thank you very 
much for the opportunity to be here today.
    My name is Kathleen Bragdon. I hold a doctorate in 
anthropology and I am currently a full professor at the College 
of William and Mary. I have been writing about native people of 
Southern New England and elsewhere and their languages for more 
than 25 years. During this time, I have been consistently 
impressed with the persistence and creative adaptability of the 
Indian communities of our region. I would like to thank the 
many native people with whom I have worked over the years for 
the honor of learning from them.
    As you know, scholars, including historians, 
archaeologists, linguists and anthropologists have been 
involved in the Federal recognition process since its 
inception. In New England, the most influential practitioners 
have been those I affectionately call Dr. Jack Campisi and his 
band of merry men, and women, all very competent and prolific 
anthropologists and ethnohistorians.
    When they began their important work, because their 
expertise was widely and rightly acknowledged, their 
evaluations were thoroughly documented, but much less extensive 
than would be required today. An adequate report 25 years ago 
was perhaps 100 pages long. Today, it would be several 
thousand.
    It has also become necessary because of the increasing 
research burdens of the recognition process, for scholars to 
document a wider range of factors than was previously thought 
necessary. I quote Sheldon Davis: ``As anthropologists, our 
primary contribution to the rights of indigenous peoples lies 
in independently and publicly documenting the social realities 
that these people face.''
    In New England, these social realities have included 
legislative dispossession, detribalization, racial 
discrimination, poverty and many kinds of social disruption. 
These conditions have made the task of documenting their 
histories and continuity as Indian entities very challenging. 
In many cases, the haphazard way in which Indian communities 
have been treated during the past 300 years has resulted in 
major gaps in the evidence, so that petitioners are faced with 
the impossible task of locating records that were never created 
or which no longer exist.
    The gaps in the official records can be filled by using 
other types of historical documentation, but this material is 
scattered and requires a good deal of training to analyze, and 
the necessity for its use because of increasingly demanding 
standards of documentation required by the Bureau of Indian 
Affairs, has created a large cost burden for most petitioners.
    Another concern is privacy. The existing official records 
that document the relations of State and local governments and 
Indian peoples often include very sensitive information about 
family history, information that Indian people are naturally 
very reluctant to have made public. As the demands of 
documentation required by the Office of Federal Acknowledgment 
have become greater, however, Indian people feel they have 
little choice but to make these sensitive records available. 
Added to this are their concerns about sacred sites and 
knowledge, which make many people reluctant to share 
information that might help their case.
    Finally, Indian people see their histories differently than 
those of the authorities who controlled the written records, 
and their views have rarely been taken into account. My own 
experience has been that it is in these alternative historical 
views, often expressed through oral histories, folks tale and 
kitchen table talk that can be found the most powerful pieces 
of evidence for community continuity and strength.
    I wish to emphasize that I think the Federal recognition 
process is vital to native interests in New England and 
elsewhere, and has led to great benefits for many Indian 
communities. By benefits, I mean increased opportunities for 
education, better health care, and the support for cultural 
enrichment and language study programs that are central to 
Indian identity and an important part of maintaining and 
celebrating their heritage.
    Some communities have now been publicly affirmed and have 
taken their rightful place as stakeholders in regional and 
national debates. The difficulties I discussed briefly above, 
however, have left other native communities out of the process, 
and this has been an additional source of division and 
discouragement to many native people. This is due in part to 
the difficulty of fitting all Indian communities presently and 
in the past into an agreed upon definition of ``tribe.''
    Another difficulty is the persistent belief that there are 
no longer any real Indians left in the eastern parts of North 
America. A cursory survey of recent newspaper articles in 
prominent and local newspapers in New England demonstrates the 
strength of his misconception, even among educated people. Non-
Indians also misunderstand the historic relationship between 
the Federal Government and Indian peoples, and see Federal 
recognition as a kind of undeserved entitlement.
    Native people struggle against these attitudes and the 
added burden of defending themselves against so-called 
``interested parties'' who refuse to accept them as who they 
say they are, and further complicates and extends the 
recognition process.
    The Chairman. Dr. Bragdon, I have been informed that we 
have a vote starting in about 7 minutes, so if you would 
summarize as much as possible so we can hear from Mr. Cooper. I 
thank you and I apologize for our Senate procedures.
    Ms. Bragdon. Certainly.
    In summary, the only defense against misinformation is a 
careful research process. I think there is room for a measure 
of cooperation with scholarly institutions such as what we have 
here at the College of William and Mary, and I fully support 
the present procedure.
    Thank you for letting me have this opportunity to speak.
    [Prepared statement of Ms. Bragdon appears in appendix.]
    The Chairman. Thank you, Dr. Bragdon. Thank you for 
appearing today.
    Mr. Cooper.

  STATEMENT OF KEN COOPER, PRESIDENT, TOWN ACTION TO SAVE KENT

    Mr. Cooper. Thank you, Mr. Chairman and Mr. Vice Chairman. 
It is an honor to appear before you to express my concern with 
the Federal process that could have tragic consequences for my 
small town.
    I am from Kent, Connecticut. Kent traces its roots to the 
early 1700's. Our population is approximately 3,000. We are 
located in the scenic northwest corner of the State, and our 
industry is serving visitors, tourists, sightseers and 
weekenders. In many ways, we are typical of small towns across 
the United States. Our local boards and commissions, ambulance 
and fire departments, library and historical societies are all 
run by volunteers.
    Municipals budgets and ordinances are voted on as they have 
been for over 300 years by open town meeting. We are rural 
America, but we are threatened. We have seen similar small 
towns in Eastern Connecticut massively disrupted and 
irrevocably changed from what they once were. The emergence of 
Las Vegas-style casinos has overwhelmed their infrastructure 
and destroyed their communal character that took 4 centuries to 
build. Their tax bases have shrunk, crime has soared. Their 
schools are jammed and sadly, the long-term residents have lost 
the ability to manage their futures.
    TASK was formed because of what we saw happening to our 
sister towns. We realized it could happen to us because of 
mismanagement within the BIA. Mr. Chairman, let me make one 
thing clear. TASK does not oppose the recognition of authentic 
Indian tribes. Our concern is the Federal acknowledgment 
process that allows the recognition of persons whose claims are 
without merit; whose pursuit of sovereignty is 
opportunistically supported and driven by gambling interests; 
and whose rules can be changed without due process or notice to 
interested parties.
    One such petition involves the Schaghticoke Tribal Nation, 
which was organized by a group that claims Indian heritage and 
rights to a State reservation in Kent. It is richly financed by 
non-Indian businessmen. They are required by contract with 
their investors to build a world-class casino, and from its 
revenues to compensate the investors up to $1 billion.
    Is it any wonder with that kind of money on the table, the 
influences are heavy, embarrassing behavior encouraged, and the 
system made weak?
    While there is nothing wrong with raising resources 
required to petition the government, given the risk such sums 
interject into the system, financial disclosures have become a 
pillar of good government practice. No such requirement exists 
for BIA petitioners or participants.
    We are facing a crisis brought on, first, by gambling 
interests that have taken over the process; by groups who do 
not meet the criteria for recognition because of their economic 
location are able to present their history with great finesse; 
and by the Federal agency processes by which they are 
recognized.
    The Inspector General, Mr. Devaney, in his letter noted 
that the regulations as written are permissive and inherently 
flexible.
    Mr. Chairman, Federal acknowledgment grants the petitioner 
extraordinary rights and in the densely populated east coast 
caused disruption to thousands of innocent citizens and has the 
effect of destroying our equally important culture. It is 
precisely because of the impact of these decisions that the 
process not be permissive. It must be dispassionate and 
disciplined. It must have absolute integrity and protect every 
party.
    The BIA is a broken bureau. Interior acknowledges it. The 
General Accounting Office has identified it. You are holding 
hearings on it and the press has reported upon it. Both 
petitioners and related parties have been victims of it. 
Legislation has been introduced about it in both Houses.
    TASK's sole mission is to ask that the BIA process 
establish its integrity for the benefit of all of its 
stakeholders and to retain the confidence of the American 
public. This is not an anti-Indian request. It is about good 
government, plain and simple.
    Mr. Chairman, Kent, Connecticut is a good citizen. We are 
willing to live with any BIA decision that is rendered 
equitably, openly and honestly. We intend to live in complete 
harmony with those who support any petition regardless of their 
ultimate success or failure.
    TASK thanks you, Mr. Chairman, and members of the 
committee, as well as our Governor, our House and Senate 
delegation, and our attorney general for working in a true 
bipartisan manner on this issue, and for permitting me the 
privilege of addressing you.
    [Prepared statement of Mr. Cooper appears in appendix.]
    The Chairman. Thank you very much, Mr. Cooper.
    Chief Velky, do you intend to build a casino in Kent?
    Mr. Velky. No, Mr. Chairman; we do not.
    The Chairman. Do you intend to start a gaming enterprise on 
your tribal lands?
    Mr. Velky. As it stands today on our tribal lands, not in 
Kent, no, sir.
    The Chairman. Anywhere on your tribal lands?
    Mr. Velky. It is our intention in the future to have a 
gaming facility, yes, sir.
    The Chairman. And you refuse to, during this process, to 
disclose who your financial backers were?
    Mr. Velky. No; we did not, sir. That has been in the 
newspapers back home continuously.
    The Chairman. Who are your financial backers?
    Mr. Velky. It is Subway, Mr. Fred DeLuca is the main 
backer. We are in dispute right now, however.
    The Chairman. About what?
    Mr. Velky. Just about being able to get along. This process 
is not an easy process, as I had outlined, Senator. It is 
unfortunate, but when we have groups such as TASK that are 
willing to pay lobbyists some $2 million in order to fight the 
Schaghticoke Nation, when the Schaghticoke Nation has to come 
and defend itself against a whole delegation of the State of 
Connecticut, it is extremely costly for us to get through and 
it is unfortunate that the tribes need to go out and borrow 
this money. But if the tribe is not able to go out there and 
borrow the money, we will do some type of a damage from 
borrowing the money, but if we do not meet our recognition, 
sir, we will not be able to overcome that cost.
    The Chairman. Thank you.
    Chief Adkins, I take it from your testimony that you 
believe that so many tribal documents and other historical 
records were destroyed that would be hard for you to achieve 
recognition through the BIA process. Is that correct?
    Mr. Adkins. That is correct, but I would like to qualify 
it. We are up against a situation where, and I would say I do 
not have a problem with the seven criteria. I have some problem 
with the process because when I look at what happened in 
Virginia, the Racial Integrity Act of 1924, the Indian 
Reorganization Act of 1934, and then in 1966 the Virginia 
Supreme Court upheld the 1924 laws, which were overturned at 
the Federal level.
    So coming out of Virginia, we have found success in the 
Federal recourse. In 1982, Virginia did form a subcommittee 
that reported on our State recognition efforts. The Virginia 
Commission on Indians was formed and State recognition was 
afforded. In 1997, then-Governor Allen supported a statute or 
signed into statute.
    The Chairman. I understand that. It was part of your 
testimony.
    Mr. Adkins. Okay. Right. So the point that I am making is 
the process hurts us because of where we were in the State. It 
is the 20th century that caused us more concern than the 
historical portion.
    The Chairman. Thank you.
    Chief Barnett, if you would submit to us in writing the 
recommendations you have that could prevent, you went through a 
23-year process. Is that correct?
    Mr. Barnett. A 25-year process.
    The Chairman. A 25-year process. If you could submit in 
writing to us recommendations on how this process could be 
expedited and be made more fair. And by the way, how much of 
that delay was due to your efforts to collect documents and 
other evidence?
    Mr. Barnett. I would say that a considerable amount of 
time. We would have to go back because of the obvious 
deficiency letters, to gather the additional information.
    The Chairman. So not all of it was just because of BIA 
inefficiency.
    Mr. Barnett. Yes; personally, I think the Cowlitz people, 
they realized that the BIA and the Federal acknowledgment 
process is a fair standard process that has to meet high bars. 
We were certainly willing to go to that level to do it. We do 
not at all feel compromised by the fact that it took as long as 
it did. However, I think that those tribes coming behind us 
deserve a little bit more fair situation than what we went 
through.
    The Chairman. Mr. Cooper, have you had discussions with the 
tribe and tribal leaders about the issue of gaming in your 
city?
    Mr. Cooper. No; we have not.
    The Chairman. Have you attempted to?
    Mr. Cooper. No; we have not, Mr. Chairman.
    The Chairman. Why not?
    Mr. Cooper. Because they are currently not a federally 
recognized tribe, and if we have discussions with them to make 
agreements. They are not bound by those discussions after the 
Federal recognition process. And the second point, Mr. 
Chairman, is we are a grassroots organization. The elected 
officials of the town of Kent and the attorney general are 
really the appropriate authorities to be conducting those 
discussions.
    The Chairman. I thank you, Mr. Cooper, and I apologize to 
the witnesses. I had many more questions, but I think we have a 
vote on.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, there is a vote that has 
started about 5 minutes ago, so I will additionally submit 
questions.
    Chairman Velky, when was your petition submitted 
originally?
    Mr. Velky. In 1994, sir.
    Senator Dorgan. And prior to that time, how long was it 
being considered for submission? When did you make a decision 
that you wanted to petition?
    Mr. Velky. In 1981.
    Senator Dorgan. In 1981?
    Mr. Velky. Yes, sir.
    Senator Dorgan. Chairman Adkins, let me just say to you 
that I think you do a service again by reminding all of us of 
what has gone before. The story that you have described is 
replicated in many ways in many other parts of the country of a 
series of governmental actions to try to either deny or destroy 
the cultural roots of native people. So I appreciate very much 
your giving us again the context and the history of all of 
this.
    This panel, Mr. Chairman, has submitted some excellent 
testimony. I have a series of questions that I would like to 
submit for the record because of the vote that is now 
occurring. I want to thank all of them for coming and 
participating today.
    The Chairman. I thank the witnesses, and I think this has 
been very helpful to us. I appreciate it.
    This hearing is adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Hon. George Allen, U.S. Senator from Virginia

    Thank you Chairman McCain. I commend you for holding this hearing 
and considering the unique and extraordinary story of these six 
Virginia Indian tribes. As you are no doubt aware, my legislation to 
provide the six Virginia tribes Federal recognition was reported out of 
this committee during the 108th Congress.
    I have again introduced the Thomasina E. Jordan Indian Tribes of 
Virginia Federal Recognition Act to begin the process of Federal 
recognition for the Chickahominy, The Eastern Chickahominy, the Upper 
Mattaponi, the Rappahannock the Monacan and the Nansemond Tribes.
    This legislation would provide a long overdue recognized status on 
a group of Americans that have been a part of this country's history 
from its inception. The six tribes seeking Federal recognition have 
suffered humiliation and indignities that have gone largely unnoticed 
by most Americans. Because many of these injustices were not a result 
of any action they undertook, but rather due to government policies 
that sought to eliminate their culture and heritage, I believe the 
circumstances of their situation warrants Congressional recognition.
    I can understand the concern my colleagues express over granting 
Federal recognition without the investigative process used by the 
Department of the Interior. However, if one closely examines the 
history of these Virginians, they will see why this legislation has 
been introduced, and why my colleagues Senator Warner has cosponsored 
here in the Senate and why Congressman Jim Moran continues to push for 
recognition on the House side.
    The history of these six tribes begins well before the first 
Europeans landed on this continent. History has shown their continuous 
inhabitance in Virginia. Through the last 400 years they have undergone 
great hardship. However, they have maintained their traditions and 
heritage through those difficult centuries. To put the long history of 
Virginia Indians in context, while many federally recognized tribes 
have signed agreements with the U.S. Government, the Virginia Indian 
tribes hold treaties with Kings of England, including the Treaty of 
1677 between the tribes and Charles the II.
    Like the plight of many Indian tribes of America over the last four 
centuries, the Virginia tribes were continually moved off of their land 
and forced to assimilate to U.S. society. Even then, the Indians of 
Virginia were not extended the same rights offered a U.S. citizen. The 
years of racial discrimination and coercive policies took a tremendous 
toll on the population of Virginia Indians. Even while living under 
such difficult circumstances and constant upheaval, the Virginia 
Indians were able to maintain a consistent culture. During the turn of 
the 20th Century, members of these six tribes suffered more injustice. 
New state mandates forced Virginia Indians to renounce their Indian 
names and heritage. The passing of the Racial Integrity Act of 1924 
began a dark time in the history of the Commonwealth of Virginia. This 
measure, enforced by a State official named Walter Plecker sought to 
destroy all records of the Virginia Indians and recognize them as 
``colored.'' People were threatened with imprisonment for noting 
``Indian'' on a birth certificate; mothers were not allowed to take 
their newborn children home if they were given an Indian name. This 
policy, along with overzealous enforcement by Plecker, has left many 
Virginia Indians searching for their true identity.
    The Racial Integrity Act left the records of thousands of Virginia 
Indians inaccurate or deliberately misleading until 1997. As Governor, 
that year, I signed legislation that directed State agencies and 
officials to correct all State records related to Virginia Indians, 
reclassifying them at Native American and not ``colored.'' My 
administration championed this initiative after learning of the pain 
the racist policy inflicted on many Virginia citizens. I also was 
briefed on the problems many Virginia Indians experienced when 
attempting to trace their ancestry or have records of children or 
deceased corrected. To combat these injustices, we ensured that any 
American Indian whose certified copy of a birth record contains an 
incorrect racial designation were able to obtain a corrected birth 
certificate without paying a fee. I could not imagine a greater insult 
than asking a citizen of Virginia to pay to have their racial 
designation corrected after it was the State's policy that caused the 
wrong designation.
    Because of the arrogant, manipulating policies of the Virginia 
Racial Integrity Act, the Virginia Indian tribes have had a difficult 
time collecting and substantiating official documents necessary for 
Federal recognition. Through no fault of their own, the records they 
need to meet the stringent and difficult requirements for Federal 
recognition are not available. I fear that unless my colleagues and I 
take action legislatively, these six tribes will be faulted and denied 
Federal recognition for circumstances they truly had no control over.
    The Virginia tribes have filed a petition with the Department of 
the Interior's Branch of Acknowledgement and Research. However I 
believe congressional action is the appropriate path for Federal 
recognition. The six Indian tribes represented today have faced 
discrimination and attacks on their culture that are unheard of in most 
regions and States of the United States. I do not feel it is right for 
the Federal Government to force them to prove who they are, when 
previous State government policies forced them to give up their 
heritage, history and race.
    Federal recognition brings numerous benefits, including access to 
education grants housing assistance and healthcare services, which are 
available to most Americans. Discrimination and a lack of educational 
opportunities have left many Virginia Indians without healthcare and 
little prospects for continued employment. Education grants would 
provide an avenue for these folks to improve their prospects for 
employment and hopefully secure a job with substantial health benefits. 
The benefits Federal recognition offers would not be restitution for 
the years of institutional racism and hostility, but it would provide 
new opportunities for the six tribes some basic necessities for long-
term success.
    I can understand some of the concerns Members of Congress have with 
gambling and property claims they relate to federally recognizing 
Indian tribes.
    Many Members of Congress place the issue of gambling and casinos 
front and center when discussing Federal recognition for Indian tribes. 
While I do not doubt that some States have experienced difficulties as 
a result of Indian tribes erecting casinos, I feel confident that 
gambling is not the goal for these six tribes. The tribes have stated 
that they have no intention of seeking casino gambling licenses and do 
not engage in bingo operations, even though they have permission to do 
so under Virginia law. To ally any other fears regarding gambling, I 
worked with Congressman Moran to craft language in our respective bills 
that provides proper safeguards under Virginia law and the Indian 
Gaming Regulatory Act. The concern that Federal recognition will result 
in gambling and casino problems in Virginia has been sufficiently 
addressed.
    I have spoken with the many of the members of these six tribes, and 
believe they are not seeking Federal recognition for superficial gain; 
instead they seek recognition to reaffirm their place as American 
Indians, after that right had been stripped for many decades.
    Mr. Chairman, I have worked with these six tribes for the last 5 
years. There circumstance is special and that is why I have introduced 
this legislation. I am hopeful that the committee will objectively 
review their situation, and make the right decision to move this to the 
floor for full Senate consideration.
    Thank you Mr. Chairman.
                                 ______
                                 

       Prepared Statement of Mark D. Boughton, Mayor, Danbury, CT

    Mr. Chairman, members of the committee, I would like to thank you 
for the opportunity to address a critical issue that is facing our 
Nation, the great state of Connecticut, and the city of Danbury.
    In the past I have testified to the House Committee on Resources 
regarding the issue of tribal recognition and the process that is laid 
out by the Bureau of Indian Affairs [BIA]. I will tell you today, as I 
have said in the past, that the process is broken. Let me be even 
clearer, the process does not work.
    This process is not about recognizing a wrong that was perpetrated 
on a group of people who have suffered at the hands of a Nation bent on 
repression and in some cases genocide. The tribal recognition process 
regarding the Schaghticoke Tribal Nation, Golden Hill Paugussetts, and 
the Eastern Pequot's is and always has been, about Casino gambling and 
the high powered investors who drive the recognition process. The key 
to recognition is that we must divorce the recognition process from 
gambling and the special interests that seek to corrupt the process.
    Why do I say this? Let's take a look at the Schaghticoke Tribal 
Nation recognition. In this case, the preliminary finding of the BIA 
stated that the Schaghticokes were not a tribe and did not meet the 
criteria for recognition. Specifically, the BIA cited the lack of 
political authority for the tribe during several key times throughout 
our history and the failure to exist as an intact social community from 
colonial times to the present without any significant gap in time. This 
is a critical component of the process and in the past has been fatal 
to an acknowledgment petition. I believe that the BIA was correct in 
making its finding. The BIA set its rules and then applied those rules 
to the Schaghticoke application to see if it met the criteria. The 
system appeared to work. As a mayor of a city that had been identified 
as a potential location for a casino we were thrilled by the BIA's 
ruling.
    Then the shoe dropped. The recognition process allows a tribe to 
address the deficiencies that have been identified in an application 
before the final decision is made. As a former teacher, this would be 
analogous to giving a test to a student, giving back the test with a 
failing grade, give the student the answers, and then rescore the test. 
If the student still did not pass, I would then go to my colleagues and 
say ``read this essay, tell me how I can give a passing grade to this 
student'' sounds absurd right? This is exactly what happened in the 
case of the Schaghticoke Tribal Nation. How do we know this? Because of 
the internal memo that was drafted at the request of The Office of 
Federal Acknowledgement [OFA]. In that memo, OFA admits that it ``can't 
get there from here''. In other words, the Schaghticoke application 
does not meet several critical parts of the steps necessary for 
recognition.
    What prompted the sudden change of heart by the BIA? Why would an 
organization ignore the very rules that it has promulgated to arrive at 
a conclusion in its final determination that is different than the one 
that was articulated in its preliminary determination? What is the 
point of having rules if the BIA itself does not follow them? One can 
only speculate at the forces that were at work at the BIA to change the 
proposed finding to one of recognition for the Schaghticoke Tribal 
Nation.
    As a result of these serious problems with the final determination, 
our city, along with the State, other municipalities, and private 
parties whose property is being threatened by the Scaghticoke land 
claim lawsuit, filed an appeal with the Interior Board of Indian 
Appeals. At this stage, things got even worse. Our brief raised many 
strong arguments, and a few months ago BIA admitted that we were right 
on one of the key issues. This extraordinary admission of error on one 
of the major findings that allowed BIA to issue a ruling in favor of 
Schaghticoke should have led BIA to issue a clear statement that the 
decision was wrong and should be reversed. Instead, BIA said nothing 
about its admitted error, and is proceeding as if nothing is wrong. 
Once again, we are left to guess at the reasons for BIA's actions.
    The result of the process is that the rules are a constant moving 
target. As a municipality involved with the recognition process, we 
have no idea what to address in an application because the BIA keeps 
changing the rules. A recent example is a ``directive'' regarding 
acknowledgment procedures issued by BIA in March. This directive 
changes the rules that are contained in a previous BIA directive issued 
in 2000. In neither case did BIA give advance notice, or ask for public 
comment, even though our rights in the acknowledgement process were 
affected. This leads to a process that is suspect at best and deeply 
flawed at its worst. Without strict guidelines, the decisionmaker in 
the recognition process is free to interpret the rules as he or she 
sees fit, or at worst, ignores the regulations all together.
    The impact of recognition of a tribe on Connecticut is profound. 
Recognition in Connecticut is different than that of recognition of the 
tribes in the southwest and the far west. The tribes of the west are 
descendents of a noble people who experienced suffering and 
exploitation at the hands of the Americans who were settling on lands 
that had been lived on for thousands of years. In Connecticut, groups 
seeking recognition are backed by people like Fred Deluca owner of 
Subway Sandwich Shops, Donald Trump of recent ``The Apprentice'' fame, 
and Thomas Wilmot a New York mall developer. These gentleman are not 
bankrolling these groups because they are concerned about the plight of 
Native Americans in Connecticut, they are interested in only one thing. 
Opening a Casino in Connecticut. These gentlemen have an unlimited 
amount of resources they bankroll the applications and wait for their 
payday. As a mayor of a municipality that is still recovering from the 
fallout of 9/11 and an economy that is still mending, opposing a 
prospective recognition is one more costly problem. When the BIA 
continues to reinvent the rules of recognition, it is even more 
difficult. In my small State we currently have two tribes that are 
recognized, two have received positive final determinations now on 
appeal, and more applications are on the way. Because of our location 
between the metropolitan centers of Boston and New York, we are an 
attractive place for casino development and the investors know it.
    The political influence of these entities is far and wide in our 
State. Soon, because of the high stakes that are involved, it is my 
fear that Connecticut will be carved up into four or five sovereign 
nations with gambling as the exclusive industry. This scenario is a 
real possibility unless Congress takes action. Because of the immense 
wealth available to the tribes with casinos, these tribes will dominate 
every aspect of our lives. Our politics, our culture, our social fabric 
will be changed forever.
    My city, located just seventy miles from New York City and home to 
a diverse economic base ranging from pharmaceuticals to light 
manufacturing and corporate development. A city that has one of the 
lowest unemployment rates in the country, recently recognized as one of 
the safest cities in the United States of America, will become a host 
to a casino that would service tens of thousands of visitors 24 hours a 
day, 365 days a year.
    Already, I have been notified by several of my CEO's of our major 
corporations that they will move if a casino is located in Danbury. 
This would be catastrophic to our economic base and our identity as a 
community. The Schaghticoke Tribal Nation has already placed land 
claims on thousands of acres in Connecticut. This entity will reign 
over every aspect of life in western Connecticut.
    The recognition process is the only vehicle we have as a 
municipality to participate in the casino issue in Connecticut. I ask 
that you consider the transparency of this process. I ask that you 
level the field so that we can understand what the rules are and how 
best to address them. I ask that you consider legislation to gain 
control of the process and put in law the seven criteria necessary for 
recognition. Thank you for your consideration of important changes 
needed in the tribal acknowledgement process.
                                 ______
                                 

   Prepared Statement of Hon. Tom A. Coburn, M.D., U.S. Senator from 
                                Oklahoma

    Chairman McCain, Vice Chairman Dorgan, I thank you for holding this 
important hearing this morning.
    Given our most recent oversight hearing on Indian gaming, today's 
hearing comes at particularly welcome time. In my opinion, the undue 
influence that gambling interests have in Indian country is a direct 
threat to the long term success of American Indians, and frequently, to 
the communities where gambling facilities are built. With this hearing, 
and our efforts on land-into-trust oversight in the months ahead, it is 
my hope that we will begin to get a clearer glimpse of the powerful, 
and all too often negative, impact that gambling is having on tribes 
and our communities.
    Nowhere is this more apparent than in the State of Connecticut. I 
look forward this morning to examining the testimony of my colleagues, 
Senator Lieberman and Senator Dodd, and the rest of the Connecticut 
delegation. Their experience and expertise on this issue is one that we 
all have to gain from, and hopefully, will allow this committee to 
build a consensus on the need for an immediate overhaul of the Federal 
recognition process.
    In addition to my concerns about the undue influence of gambling 
interests, I have serious misgivings about the ability of the Office of 
Federal Acknowledgement [OFA] to carry out the important mission of 
Federal recognition. While resource concerns can and will be examined 
by this committee, more fundamentally, I firmly believe that the OFA 
and the Department of the Interior have proven themselves incapable of 
handling these duties in a timely or fair manner. This is partly the 
fault of the agency itself, but in my opinion, is reflective of a much 
larger failure on the part of Congress to enact guidelines that clearly 
outline the mission of the OFA, or to conduct serious oversight of this 
important process.
    Based on the caliber of the witnesses before us this morning, and 
the commitment of Chairman McCain, I am confident that today we will 
begin to get a much better look at the problems facing OFA, tribal 
governments, and State and local officials. The stakes are high--
official Federal recognition brings with it important responsibilities 
on the part of the Federal Government and prospective tribal 
governments.
    I applaud the Chairman and Vice Chairman for conducting this 
hearing. I am committed to working with you to enact serious, long term 
reforms for the OFA and the Department of the Interior. The process of 
tribal recognition, and the far reaching consequences of these 
important decisions, is far too important to allow further delay.
                                 ______
                                 

  Prepared Statement of Stephen R. Adkins, Chief, Chickahominy Indian 
                                 Tribe

    Thank you Chairman McCain, Vice Chairman Dorgan and members of this 
committee for inviting me here today to speak on S. 480. Senator George 
Allen introduced the bill. A hearing on our prior Federal Recognition 
bill was held by this committee on October 9, 2002 [S. 2694]. On behalf 
of the six tribes named in S. 480, Eastern, Chickahominy, the Monacan, 
the Nansemond, the Upper Mattapord, the Rappahannock, and my tribe the 
Chickahominy, I am requesting that the evidence, from that hearing be 
submitted into today's record. That evidence included a strong letter 
of support from our current Governor, Mark Warner. Beside me today is 
Professor Danielle Moretti-Langholtz from the College of William & Mary 
who worked on the petitions we filed with the BIA. She is prepared to 
assist with any questions you may have about our history.
    Chairman McCain, I could tell you the much publicized story of the 
17th Century Virginia Indians, but you, like most Americans, know our 
first contact history. Well known is the story of Chief Powhatan and 
his daughter Pocahontas, her picture being in this very capitol 
building with her English husband John Rolfe. I often say this country 
is here today because of the kindness and hospitality of my forebears 
who helped the English Colonists at Jamestown gain a foothold in a new 
and strange environment. But what do you know or what does mainstream 
America know about what happened in those years between the 17th 
century and May 11, 2005. The fact that we were so prominent in early 
history and then so callously denied our Indian heritage, is the story 
that most don't want to remember or recognize. I, and those chiefs here 
with me, stand on the shoulders of the Paspahegh led by Chief, 
Wowinchopunk whose wife was captured and taken to Jamestown Fort and 
``run through'' with a sword, whose children were tossed overboard and 
then their brains were ``shot out'' as they floundered in the water, 
and whose few remaining tribal members sought refuge with a nearby 
tribe, possibly the Chickahominy. With this horrific action in August 
1610, a whole nation was annihilated. A nation that befriended 
strangers, and, ultimately died at the hands of those same strangers.
    We are seeking recognition through an act of Congress rather than 
the BIA because actions taken by the Commonwealth of Virginia during 
the 20th Century that sought to erase the existence of my people 
through statutes and legislation have made the administrative process 
nearly impossible. The destruction of documents, regarding our 
existence, during the Civil War and other periods of early history 
pales in comparison to the State sanctioned indignities heaped upon my 
people under the hand of Walter Ashby Plecker, a rabid separatist, who 
ruled over the Bureau of Vital Statistics for 34 years, from 1912 to 
1946. Although socially unacceptable to kill Indians outright, Virginia 
Indians became fair game to Plecker as he led efforts to eradicate all 
references to Indian on Vital Records. A practice that was supported by 
the State's establishment when the eugenics movement was endorsed by 
leading State universities and when the State's legislature enacted the 
Racial Integrity Act in 1924. A law that stayed in effect until 1967 
and caused my parents to have to travel to Washington DC on February 
20, 1935 in order to be married as Indians. This vile law forced all 
segments of the population to be registered at birth in one of two 
categories, white or colored. Thus legitimizing cultural genocide for 
Virginia's Indigenous Peoples, Sadly this tells only a part of the 
story. The affect of this period and the racial policies of the State, 
meant that Indian people were targeted--it was feared that they would 
dare to try to claim their heritage and seek extra protection outside 
the State or with the Federal Government. The policies established by 
Plecker made it illegal to designate Indian on a birth certificate or 
to give an Indian child a traditional Indian name. Violations put 
doctors and midwives at risk of up to 1 year in jail. Our 
anthropologist says there is no other State that attacked Indian 
identity as directly as the laws passed during that period of time in 
Virginia. No other ethnic communitys heritage was denied in this way. 
Our State, by law, declared there were no Indians in the State in 1924, 
and if you dared to say differently, you went to jail or worse. That 
law stayed in affect half of my life.
    I have been asked why I do not have a traditional Indian name. 
Quite simply my parents, as did many other native parents, weighed the 
risks and decided it was not worth the risk of going to jail.
    We are seeking recognition through Congress because this history, 
prevented us from believing that we could fit into a petitioning 
process that would understand or reconcile this State action with our 
heritage, we feared the process would not be able to see beyond the 
corrupted documentation that was legally mandated to deny our Indian 
heritage. Many of the elders in our community also feared, and for good 
reason, the racial backlash if they tried.
    My father and his peers lived the Plecker years and carried those 
scars to their graves.
    Chairman McCain, the story I just recounted to you is very painful 
and I do not like to tell that story. Many of my people will not 
discuss what I have shared with you but I felt you needed to understand 
recent history opposite the romanticized, inaccurate accounts of 17th 
century history.
    Let me tell you how we got here today. The six tribes on this bill 
gained State Recognition in the Commonwealth of Virginia between 1983-
89. Subsequent to State recognition Senator George Allen, as Governor 
heard and learned our story. In 1997 he passed the statute that 
acknowledged the aforementioned discriminatory laws and allowed those 
with Indian heritage to correct their records with costs to be borne by 
the Commonwealth. At that juncture we began to look ahead to Federal 
recognition. In 1999, we were advised by the BAR or OFA today, that 
many of us would not live long enough to see our petition go through 
the administrative process. A prophecy that has come true. We have 
buried four Virginia Indian chiefs since then.
    Given the realities of the OFA and the historical slights suffered 
by the Virginia Indian tribes for the last 400 years, the six tribes 
referenced in S. 480 feel that our situation clearly distinguishes us 
as candidates for Congressional Federal recognition.
    As chief of my tribe, I have persevered in this process for one 
reason. I do not want my family or my community to let the legacy of 
Walter Plecker stand. I want the assistance of Congress to give the 
Indian tribes in Virginia their freedom from a history, that denied 
their Indian identity. Without acknowledgment of our identity, the harm 
of racism is the dominant history. I want my children and the next 
generation, to have their Indian Heritage honored and to move past what 
I experienced and my parents experienced. We the leaders of the these 
six Virginia tribes, are asking Congress to help us make history for 
the Indian people of Virginia, a history that honors our ancestors that 
were here at the beginning of this great country.
    I want to end with a quote credited to Chief Powhatan. This quote, 
from Chief Powhatan to John Smith, maybe has been forgotten but 
ironically the message still has relevance today:
    ``I wish that your love to us might not be less than ours to you. 
Why should you take by force that which you can have from us by love? 
Why should you destroy us who have provided you with food? What can you 
get by war?
    In such circumstances, my men must watch, and if a twig should but 
break, all would cry out, ``Here comes Captain Smith.'' And so, in this 
miserable manner to end my miserable life. And, Captain Smith, this 
might soon be your fate too. I, therefore, exhort you to peaceable 
councils, and above all I insist that the guns and swords, the cause of 
all our jealousy and uneasiness, be removed and sent away.
    Chairman McCain, our bill would give us this peace that Chief 
Powhatan sought, it would honor the treaty our ancestors made with the 
early Colonists and the Crown, and it would show respect for our 
heritage and Identity, that through jealously perhaps has never before 
been acknowledged.
    Chairman McCain, I thank you for allowing me to testify before this 
committee.

  Prepared Statement of Kenneth Adams, Chief, Upper Mattaponi Indian 
                                 Tribe

    Good morning, Mr. Chairman. I am Kenneth Adams, Chief of the Upper 
Mattaponi Indian Tribe. With me today are Chief Adkins, Chief Bradby, 
Chief Branham, Chief Bass, and Chief Richardson. We are the proud 
descendants of the Keepers of this Great Land when the English 
Colonists arrived in 1607. The Peace Treaty of 1677 established the 
Governing authority of the Pamunkey Queen and the Monacan Chief over 
our ancestors. We are the direct descendants of those colonial tribes. 
Today these nations have come together to ask the Congress of these 
United States to acknowledge our one on one relationship with the 
government of this nation.
    Chief Justice John Marshall in 1832 stated, the Constitution, by 
declaring those treaties already made, as well as those to be made, the 
Supreme Law of the land, has adopted and sanctioned the previous 
treaties made with the Indian Nations.
    Each of these great Chiefs carry in their hearts many burdens of 
our people. I cannot express for them the sorrows they have endured. 
But I can express to you a sample of what we have all endured. When I 
was a child growing up in King William County, Virginia, high school 
education for Indians in the state was almost nil. Even before I 
entered grade school, my older brothers and sisters were being sent off 
to Oklahoma and Michigan to complete high school. I was the first 
Indian to graduate from King William High School in 1965. Myself in 
1967 and my brother in 1968 served in Vietnam. Shortly afterwards, I 
went to visit my brother. It was almost like walking in the house of a 
stranger. Not because of our experiences in Viet Nam. It was because of 
the policies of the State of Virginia. It was the policy that forced 
him from home in order to seek a high school education. And what was 
his response to that policy? His response was to put his life on the 
line for the United States of America. I can surely tell you today, in 
these individual tribes, there are many more stories like this one. I 
can say with 100 percent certainty, when it comes to defending this 
homeland, Virginia Indians have spilt their blood. You might ask us, 
why do you come now? We have an answer. For almost 400 years, Virginia 
attempted to diminish our presence. After 1700 we were pushed onto 
increasingly smaller pieces of land and by the mid 1900's Virginia was 
attempting to document us out of existence. The fight to maintain our 
identity was a struggle our Mothers and Fathers fought well, but they 
lacked education and resources. They had been told on several occasions 
no help from the Federal Government was available. In 1946 one of 
Chiefs attempted to obtain high school educational resources through 
the Office of Indian Affairs. The only help offered was in the form of 
education at a Federal boarding school. No help was available in 
Virginia.
    If the State government was attempting to deny our existence and 
the Federal Government provided little assistance, where could these 
people possibly go? That is why it has taken us so long to get here.
    Virginia has recognized its errors. Along with bill H.R. 2345 
sponsored by Congresspersons Moran and Davis, Senator Allen, with the 
support of Senator Warner, has introduced S. 2964 granting Federal 
Acknowledgment to these six tribes. In 1999, the Virginia General 
Assembly passed a Resolution with over whelming support asking for 
Congressional Recognition of these tribes. King William County, 
Virginia, home of the Upper Mattaponi, also passed a resolution in 
favor of Federal Acknowledgment. We have the support of the majority of 
the Virginia Congressmen and Women. As you can see, we have 
overwhelming support from the Commonwealth of Virginia.
    Now, the U.S. Congress has the opportunity to make a historical 
change. A positive change that would bring honor to you as well as 
honor to us.
    We ask you to make the right decision and support this bill for 
Federal Acknowledgment of Virginia Indians.
                                 ______
                                 

  Prepared Statement of Hon. James P. Moran, U.S. Representative from 
                                Virginia

    Good morning and thank you, Mr. Chairman.
    I appreciate your willingness to hold this hearing and providing us 
with an opportunity to help tell the story of six of Virginia's Native 
American tribes. The story of these tribes is compelling, but I ask for 
more than your sympathetic ear. I also ask for action on legislation 
[S. 2694] that Senators George Allen and John Warner introduced, which 
is a companion to the bill Representative Jo Ann Davis and I sponsored 
in the House, to grant these tribes Federal recognition.
    I ask that the Federal Government, starting with this distinguished 
Committee on Indian Affairs, recognize the Chickahominy, the Eastern 
Chickahominy, the Monacan, the Nansemond, the Rappahannock and the 
Upper Mattaponi Tribes. These tribes exist, they have existed on a 
substantially continuous basis since before the first western European 
settlers stepped foot in America; and, they are here with us today.
    I know there is great resistance from Congress to grant any Native 
American tribe Federal recognition. And, I can appreciate how the issue 
of gambling and its economic and moral dimensions have influenced many 
Members' perspectives on tribal recognition issues.
    I think the circumstances and situation these tribes have endured 
and the legacy they still confront today, however, outweigh these 
concerns. Congress has the power to recognize these tribes. It has 
exercised this power in the past, and it should exercise this power 
again with respect to these six tribes.
    Like much of our early history as a nation, the Virginia tribes 
were subdued, pushed off their land, and, up through much of the 20th 
Century, denied full rights as U.S. citizens. Despite their devastating 
loss of land and population, the Virginia Indians successfully overcame 
years of racial discrimination that denied them equal opportunities to 
pursue their education and preserve their cultural identity. That story 
of survival doesn't encompass decades, it spans centuries of racial 
hostility and coercive State and State-sanctioned actions. Unlike most 
tribes that resisted encroachment and obtained Federal recognition when 
they signed peace treaties with the Federal Government, Virginia's six 
tribes signed their peace treaties with the Kings of England. Most 
notable among these was the Treaty of 1677 between these tribes and 
Charles II.
    In more recent times, this racial hostility culminated with the 
enactment and brutal enforcement of Virginia's Racial Integrity Act of 
1924. This act empowered zealots, like Walter Plecker, a State 
official, to destroy records and reclassify in Orwellian fashion all 
non-whites as ``colored.'' To call yourself a ``Native American'' in 
Virginia was to risk a jail sentence of up to 1 year.
    Imagine a married couple unable to obtain the release of their 
newborn child from the hospital until they change their child's 
ethnicity on the medical record to read ``colored,'' not ``Native 
American.'' Or, imagine being told that you have no right to reclaim 
and bury your ancestors once you learn they were being stored in a 
museum vault.
    Or, imagine your frustration upon finding your legal efforts to 
appeal a local water issue in Federal court because you're told your 
suit has no standing since your tribe doesn't exist.
    Or, imagine being told that the only reason you're seeking Federal 
recognition is to establish a gambling casino.
    Or, imagine the Indian mission school that your grandparents and 
your parents attended receiving Federal recognition as a historic 
landmark, but yet you and your daughters and sons not recognized by the 
Federal Government as Native Americans.
    Mr. Chairman, these are just a few of the examples of the 
indignities visited upon the members of the six tribes present here 
today.
    I mention these indignities because they are part of a shameful 
legacy experienced in our lifetime. Some are indignities that are still 
visited upon members of the tribes today.
    More to the point, this legacy has also complicated these tribes' 
quest for Federal recognition, making it difficult to furnish 
corroborating state and official documents. It wasn't until 1997 when 
then Governor George Allen signed legislation directing state agencies 
to correct state records that had deliberately been altered to list 
Virginia Indians on official state documents as ``colored.'' In recent 
years, the Virginia tribes have filed their petitions with the Bureau 
of Indian Affairs. They have no deep pockets and lack the financial 
means to rigorously pursue the lengthy and resource intensive petition 
process. Even more discouraging, they have been told by bureau 
officials not to expect to see any action on their petitions within 
their lifetime. The GAO study this committee reviewed earlier this year 
confirms this backlog.
    Asking them to wait another 10 years or more is not what these 
tribes deserve. Many of the members are elderly and in need of medical 
care and assistance. They lack health insurance and pensions because 
past discrimination denied them opportunities for an advanced education 
and a steady job. Federal recognition would entitle them to receive 
health and housing assistance.
    It would be one of the greatest of ironies and a further injustice 
to these tribes if in our efforts to recognize the 400th anniversary of 
the first permanent European settlement in North America, we had failed 
to recognize the direct descendants of the Native Americans who met 
these settlers.
    Before closing, let me touch upon one issue, the issue of gambling, 
that may be at the forefront of some Members' concerns. In response to 
such concerns, I have worked with Rep. Jo Ann Davis and others in the 
Virginia congressional delegation to close any potential legal 
loopholes in this legislation to ensure that the Commonwealth of 
Virginia could prevent casino-type gaming by the tribes. Having 
maintained a close relationship with many of the members of these 
tribes, I believe they are sincere in their claims that gambling is 
inconsistent with their values. Many of the tribes live in rural areas 
with conservative family and religious beliefs. All six tribes have 
established non-profit organizations and are permitted under Virginia 
law to operate bingo games. Despite compelling financial needs that 
bingo revenues could help address, none of the tribes are engaged in 
bingo gambling.
    Mr. Chairman, the real issue for the tribes is one of 
acknowledgment and the long overdue need for the Federal Government to 
affirm their identity as Native Americans. I urge you to proceed with 
action on this proposal.
    Thank you again for arranging this hearing.

    [GRAPHIC] [TIFF OMITTED] T1352.001
    
    [GRAPHIC] [TIFF OMITTED] T1352.002
    
    [GRAPHIC] [TIFF OMITTED] T1352.003
    
    [GRAPHIC] [TIFF OMITTED] T1352.004
    
    [GRAPHIC] [TIFF OMITTED] T1352.005
    
    [GRAPHIC] [TIFF OMITTED] T1352.006
    
    [GRAPHIC] [TIFF OMITTED] T1352.007
    
    [GRAPHIC] [TIFF OMITTED] T1352.008
    
    [GRAPHIC] [TIFF OMITTED] T1352.009
    
    [GRAPHIC] [TIFF OMITTED] T1352.010
    
    [GRAPHIC] [TIFF OMITTED] T1352.011
    
    [GRAPHIC] [TIFF OMITTED] T1352.012
    
    [GRAPHIC] [TIFF OMITTED] T1352.013
    
    [GRAPHIC] [TIFF OMITTED] T1352.014
    
    [GRAPHIC] [TIFF OMITTED] T1352.015
    
    [GRAPHIC] [TIFF OMITTED] T1352.016
    
    [GRAPHIC] [TIFF OMITTED] T1352.017
    
    [GRAPHIC] [TIFF OMITTED] T1352.018
    
    [GRAPHIC] [TIFF OMITTED] T1352.019
    
    [GRAPHIC] [TIFF OMITTED] T1352.020
    
    [GRAPHIC] [TIFF OMITTED] T1352.021
    
    [GRAPHIC] [TIFF OMITTED] T1352.022
    
    [GRAPHIC] [TIFF OMITTED] T1352.023
    
    [GRAPHIC] [TIFF OMITTED] T1352.024
    
    [GRAPHIC] [TIFF OMITTED] T1352.025
    
    [GRAPHIC] [TIFF OMITTED] T1352.026
    
    [GRAPHIC] [TIFF OMITTED] T1352.027
    
    [GRAPHIC] [TIFF OMITTED] T1352.028
    
    [GRAPHIC] [TIFF OMITTED] T1352.029
    
    [GRAPHIC] [TIFF OMITTED] T1352.030
    
    [GRAPHIC] [TIFF OMITTED] T1352.031
    
    [GRAPHIC] [TIFF OMITTED] T1352.032
    
    [GRAPHIC] [TIFF OMITTED] T1352.033
    
    [GRAPHIC] [TIFF OMITTED] T1352.034
    
    [GRAPHIC] [TIFF OMITTED] T1352.035
    
    [GRAPHIC] [TIFF OMITTED] T1352.036
    
    [GRAPHIC] [TIFF OMITTED] T1352.037
    
    [GRAPHIC] [TIFF OMITTED] T1352.038
    
    [GRAPHIC] [TIFF OMITTED] T1352.039
    
    [GRAPHIC] [TIFF OMITTED] T1352.040
    
    [GRAPHIC] [TIFF OMITTED] T1352.041
    
    [GRAPHIC] [TIFF OMITTED] T1352.042
    
    [GRAPHIC] [TIFF OMITTED] T1352.043
    
    [GRAPHIC] [TIFF OMITTED] T1352.044
    
    [GRAPHIC] [TIFF OMITTED] T1352.045
    
    [GRAPHIC] [TIFF OMITTED] T1352.046
    
    [GRAPHIC] [TIFF OMITTED] T1352.047
    
    [GRAPHIC] [TIFF OMITTED] T1352.048
    
    [GRAPHIC] [TIFF OMITTED] T1352.049
    
    [GRAPHIC] [TIFF OMITTED] T1352.050
    
    [GRAPHIC] [TIFF OMITTED] T1352.051
    
    [GRAPHIC] [TIFF OMITTED] T1352.052
    
    [GRAPHIC] [TIFF OMITTED] T1352.053
    
    [GRAPHIC] [TIFF OMITTED] T1352.054
    
    [GRAPHIC] [TIFF OMITTED] T1352.055
    
    [GRAPHIC] [TIFF OMITTED] T1352.056
    
    [GRAPHIC] [TIFF OMITTED] T1352.057
    
    [GRAPHIC] [TIFF OMITTED] T1352.058
    
    [GRAPHIC] [TIFF OMITTED] T1352.059
    
    [GRAPHIC] [TIFF OMITTED] T1352.060
    
    [GRAPHIC] [TIFF OMITTED] T1352.061
    
    [GRAPHIC] [TIFF OMITTED] T1352.062
    
    [GRAPHIC] [TIFF OMITTED] T1352.063
    
    [GRAPHIC] [TIFF OMITTED] T1352.064
    
    [GRAPHIC] [TIFF OMITTED] T1352.065
    
    [GRAPHIC] [TIFF OMITTED] T1352.066
    
    [GRAPHIC] [TIFF OMITTED] T1352.067
    
    [GRAPHIC] [TIFF OMITTED] T1352.068
    
    [GRAPHIC] [TIFF OMITTED] T1352.069
    
    [GRAPHIC] [TIFF OMITTED] T1352.070
    
    [GRAPHIC] [TIFF OMITTED] T1352.071
    
    [GRAPHIC] [TIFF OMITTED] T1352.072
    
    [GRAPHIC] [TIFF OMITTED] T1352.073
    
    [GRAPHIC] [TIFF OMITTED] T1352.074
    
    [GRAPHIC] [TIFF OMITTED] T1352.075
    
    [GRAPHIC] [TIFF OMITTED] T1352.076
    
    [GRAPHIC] [TIFF OMITTED] T1352.077
    
    [GRAPHIC] [TIFF OMITTED] T1352.078
    
    [GRAPHIC] [TIFF OMITTED] T1352.079
    
    [GRAPHIC] [TIFF OMITTED] T1352.080
    
    [GRAPHIC] [TIFF OMITTED] T1352.081
    
    [GRAPHIC] [TIFF OMITTED] T1352.082
    
    [GRAPHIC] [TIFF OMITTED] T1352.083
    
    [GRAPHIC] [TIFF OMITTED] T1352.084
    
    [GRAPHIC] [TIFF OMITTED] T1352.085
    
    [GRAPHIC] [TIFF OMITTED] T1352.086
    
    [GRAPHIC] [TIFF OMITTED] T1352.087
    
    [GRAPHIC] [TIFF OMITTED] T1352.088
    
    [GRAPHIC] [TIFF OMITTED] T1352.089
    
    [GRAPHIC] [TIFF OMITTED] T1352.090
    
    [GRAPHIC] [TIFF OMITTED] T1352.091
    
    [GRAPHIC] [TIFF OMITTED] T1352.092
    
    [GRAPHIC] [TIFF OMITTED] T1352.093
    
    [GRAPHIC] [TIFF OMITTED] T1352.094
    
    [GRAPHIC] [TIFF OMITTED] T1352.095
    
    [GRAPHIC] [TIFF OMITTED] T1352.096
    
    [GRAPHIC] [TIFF OMITTED] T1352.097
    
    [GRAPHIC] [TIFF OMITTED] T1352.098
    
    [GRAPHIC] [TIFF OMITTED] T1352.099
    
    [GRAPHIC] [TIFF OMITTED] T1352.100
    
    [GRAPHIC] [TIFF OMITTED] T1352.101
    
    [GRAPHIC] [TIFF OMITTED] T1352.102
    
    [GRAPHIC] [TIFF OMITTED] T1352.103
    
    [GRAPHIC] [TIFF OMITTED] T1352.104
    
    [GRAPHIC] [TIFF OMITTED] T1352.105
    
    [GRAPHIC] [TIFF OMITTED] T1352.106
    
    [GRAPHIC] [TIFF OMITTED] T1352.107
    
    [GRAPHIC] [TIFF OMITTED] T1352.108
    
    [GRAPHIC] [TIFF OMITTED] T1352.109
    
    [GRAPHIC] [TIFF OMITTED] T1352.110
    
    [GRAPHIC] [TIFF OMITTED] T1352.111
    
    [GRAPHIC] [TIFF OMITTED] T1352.112
    
    [GRAPHIC] [TIFF OMITTED] T1352.113
    
    [GRAPHIC] [TIFF OMITTED] T1352.114
    
    [GRAPHIC] [TIFF OMITTED] T1352.115
    
    [GRAPHIC] [TIFF OMITTED] T1352.116
    
    [GRAPHIC] [TIFF OMITTED] T1352.117
    
    [GRAPHIC] [TIFF OMITTED] T1352.118
    
    [GRAPHIC] [TIFF OMITTED] T1352.119
    
    [GRAPHIC] [TIFF OMITTED] T1352.120
    
    [GRAPHIC] [TIFF OMITTED] T1352.121
    
    [GRAPHIC] [TIFF OMITTED] T1352.122
    
    [GRAPHIC] [TIFF OMITTED] T1352.123
    
    [GRAPHIC] [TIFF OMITTED] T1352.124
    
    [GRAPHIC] [TIFF OMITTED] T1352.125
    
    [GRAPHIC] [TIFF OMITTED] T1352.126
    
    [GRAPHIC] [TIFF OMITTED] T1352.127
    
    [GRAPHIC] [TIFF OMITTED] T1352.128
    
    [GRAPHIC] [TIFF OMITTED] T1352.129
    
    [GRAPHIC] [TIFF OMITTED] T1352.130
    
    [GRAPHIC] [TIFF OMITTED] T1352.131
    
    [GRAPHIC] [TIFF OMITTED] T1352.132
    
    [GRAPHIC] [TIFF OMITTED] T1352.133
    
    [GRAPHIC] [TIFF OMITTED] T1352.134
    
    [GRAPHIC] [TIFF OMITTED] T1352.135
    
    [GRAPHIC] [TIFF OMITTED] T1352.136
    
    [GRAPHIC] [TIFF OMITTED] T1352.137
    
    [GRAPHIC] [TIFF OMITTED] T1352.138
    
    [GRAPHIC] [TIFF OMITTED] T1352.139
    
    [GRAPHIC] [TIFF OMITTED] T1352.140
    
    [GRAPHIC] [TIFF OMITTED] T1352.141
    
    [GRAPHIC] [TIFF OMITTED] T1352.142
    
    [GRAPHIC] [TIFF OMITTED] T1352.143
    
    [GRAPHIC] [TIFF OMITTED] T1352.144
    
    [GRAPHIC] [TIFF OMITTED] T1352.145
    
    [GRAPHIC] [TIFF OMITTED] T1352.146
    
    [GRAPHIC] [TIFF OMITTED] T1352.147
    
    [GRAPHIC] [TIFF OMITTED] T1352.148
    
    [GRAPHIC] [TIFF OMITTED] T1352.149
    
    [GRAPHIC] [TIFF OMITTED] T1352.150
    
    [GRAPHIC] [TIFF OMITTED] T1352.151
    
    [GRAPHIC] [TIFF OMITTED] T1352.152
    
    [GRAPHIC] [TIFF OMITTED] T1352.153
    
    [GRAPHIC] [TIFF OMITTED] T1352.154
    
    [GRAPHIC] [TIFF OMITTED] T1352.155
    
    [GRAPHIC] [TIFF OMITTED] T1352.156
    
    [GRAPHIC] [TIFF OMITTED] T1352.157
    
    [GRAPHIC] [TIFF OMITTED] T1352.158
    
    [GRAPHIC] [TIFF OMITTED] T1352.159
    
    [GRAPHIC] [TIFF OMITTED] T1352.160
    
    [GRAPHIC] [TIFF OMITTED] T1352.161
    
    [GRAPHIC] [TIFF OMITTED] T1352.162
    
    [GRAPHIC] [TIFF OMITTED] T1352.163
    
    [GRAPHIC] [TIFF OMITTED] T1352.164
    
    [GRAPHIC] [TIFF OMITTED] T1352.165
    
    [GRAPHIC] [TIFF OMITTED] T1352.166
    
    [GRAPHIC] [TIFF OMITTED] T1352.167
    
    [GRAPHIC] [TIFF OMITTED] T1352.168
    
    [GRAPHIC] [TIFF OMITTED] T1352.169
    
    [GRAPHIC] [TIFF OMITTED] T1352.170
    
    [GRAPHIC] [TIFF OMITTED] T1352.171
    
    [GRAPHIC] [TIFF OMITTED] T1352.172
    
    [GRAPHIC] [TIFF OMITTED] T1352.173
    
    [GRAPHIC] [TIFF OMITTED] T1352.174
    
    [GRAPHIC] [TIFF OMITTED] T1352.175
    
    [GRAPHIC] [TIFF OMITTED] T1352.176
    
    [GRAPHIC] [TIFF OMITTED] T1352.177
    
    [GRAPHIC] [TIFF OMITTED] T1352.178
    
    [GRAPHIC] [TIFF OMITTED] T1352.179
    
    [GRAPHIC] [TIFF OMITTED] T1352.180
    
    [GRAPHIC] [TIFF OMITTED] T1352.181
    
    [GRAPHIC] [TIFF OMITTED] T1352.182
    
    [GRAPHIC] [TIFF OMITTED] T1352.183
    
    [GRAPHIC] [TIFF OMITTED] T1352.184
    
    [GRAPHIC] [TIFF OMITTED] T1352.185
    
    [GRAPHIC] [TIFF OMITTED] T1352.186
    
    [GRAPHIC] [TIFF OMITTED] T1352.187
    
    [GRAPHIC] [TIFF OMITTED] T1352.188
    
    [GRAPHIC] [TIFF OMITTED] T1352.189
    
    [GRAPHIC] [TIFF OMITTED] T1352.190
    
    [GRAPHIC] [TIFF OMITTED] T1352.191
    
    [GRAPHIC] [TIFF OMITTED] T1352.192
    
    [GRAPHIC] [TIFF OMITTED] T1352.193
    
    [GRAPHIC] [TIFF OMITTED] T1352.194
    
    [GRAPHIC] [TIFF OMITTED] T1352.195
    
    [GRAPHIC] [TIFF OMITTED] T1352.196
    
    [GRAPHIC] [TIFF OMITTED] T1352.197
    
    [GRAPHIC] [TIFF OMITTED] T1352.198
    
    [GRAPHIC] [TIFF OMITTED] T1352.199
    
    [GRAPHIC] [TIFF OMITTED] T1352.200
    
    [GRAPHIC] [TIFF OMITTED] T1352.201
    
    [GRAPHIC] [TIFF OMITTED] T1352.202
    
    [GRAPHIC] [TIFF OMITTED] T1352.203
    
    [GRAPHIC] [TIFF OMITTED] T1352.204
    
    [GRAPHIC] [TIFF OMITTED] T1352.205
    
    [GRAPHIC] [TIFF OMITTED] T1352.206
    
    [GRAPHIC] [TIFF OMITTED] T1352.207
    
    [GRAPHIC] [TIFF OMITTED] T1352.208
    
    [GRAPHIC] [TIFF OMITTED] T1352.209
    
    [GRAPHIC] [TIFF OMITTED] T1352.210
    
    [GRAPHIC] [TIFF OMITTED] T1352.211
    
    [GRAPHIC] [TIFF OMITTED] T1352.212
    
    [GRAPHIC] [TIFF OMITTED] T1352.213
    
    [GRAPHIC] [TIFF OMITTED] T1352.214
    
    [GRAPHIC] [TIFF OMITTED] T1352.215
    
    [GRAPHIC] [TIFF OMITTED] T1352.216
    
    [GRAPHIC] [TIFF OMITTED] T1352.217
    
    [GRAPHIC] [TIFF OMITTED] T1352.218
    
    [GRAPHIC] [TIFF OMITTED] T1352.219
    
    [GRAPHIC] [TIFF OMITTED] T1352.220
    
    [GRAPHIC] [TIFF OMITTED] T1352.221
    
    [GRAPHIC] [TIFF OMITTED] T1352.222
    
    [GRAPHIC] [TIFF OMITTED] T1352.223
    
    [GRAPHIC] [TIFF OMITTED] T1352.224
    
    [GRAPHIC] [TIFF OMITTED] T1352.225
    
    [GRAPHIC] [TIFF OMITTED] T1352.226
    
    [GRAPHIC] [TIFF OMITTED] T1352.227
    
    [GRAPHIC] [TIFF OMITTED] T1352.228
    
    [GRAPHIC] [TIFF OMITTED] T1352.229
    
    [GRAPHIC] [TIFF OMITTED] T1352.230
    
    [GRAPHIC] [TIFF OMITTED] T1352.231
    
    [GRAPHIC] [TIFF OMITTED] T1352.232
    
    [GRAPHIC] [TIFF OMITTED] T1352.233
    
    [GRAPHIC] [TIFF OMITTED] T1352.234
    
    [GRAPHIC] [TIFF OMITTED] T1352.235
    
    [GRAPHIC] [TIFF OMITTED] T1352.236
    
    [GRAPHIC] [TIFF OMITTED] T1352.237
    
    [GRAPHIC] [TIFF OMITTED] T1352.238
    
    [GRAPHIC] [TIFF OMITTED] T1352.239
    
    [GRAPHIC] [TIFF OMITTED] T1352.240
    
    [GRAPHIC] [TIFF OMITTED] T1352.241
    
    [GRAPHIC] [TIFF OMITTED] T1352.242
    
    [GRAPHIC] [TIFF OMITTED] T1352.243
    
    [GRAPHIC] [TIFF OMITTED] T1352.244
    
    [GRAPHIC] [TIFF OMITTED] T1352.245
    
                                 <all>

</pre></body></html>
